<html>
<title> - HOW NCLB AFFECTS STUDENTS WITH DISABILITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                            HOW NCLB AFFECTS
                       STUDENTS WITH DISABILITIES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 29, 2007

                               __________

                           Serial No. 110-18

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                    U.S. GOVERNMENT PRINTING OFFICE
34-174                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Bob Inglis, South Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Timothy H. Bishop, New York          Kenny Marchant, Texas
Linda T. Sanchez, California         Tom Price, Georgia
John P. Sarbanes, Maryland           Luis G. Fortuno, Puerto Rico
Joe Sestak, Pennsylvania             Charles W. Boustany, Jr., 
David Loebsack, Iowa                     Louisiana
Mazie Hirono, Hawaii                 Virginia Foxx, North Carolina
Jason Altmire, Pennsylvania          John R. ``Randy'' Kuhl, Jr., New 
John A. Yarmuth, Kentucky                York
Phil Hare, Illinois                  Rob Bishop, Utah
Yvette D. Clarke, New York           David Davis, Tennessee
Joe Courtney, Connecticut            Timothy Walberg, Michigan
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware,
Dennis J. Kucinich, Ohio               Ranking Minority Member
Susan A. Davis, California           Peter Hoekstra, Michigan
Danny K. Davis, Illinois             Mark E. Souder, Indiana
Raul M. Grijalva, Arizona            Vernon J. Ehlers, Michigan
Donald M. Payne, New Jersey          Judy Biggert, Illinois
Rush D. Holt, New Jersey             Bob Inglis, South Carolina
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Rob Bishop, Utah
Joe Sestak, Pennsylvania             Todd Russell Platts, Pennsylvania
David Loebsack, Iowa                 Ric Keller, Florida
Mazie Hirono, Hawaii                 Joe Wilson, South Carolina
Phil Hare, Illinois                  Charles W. Boustany, Jr., 
Lynn C. Woolsey, California              Louisiana
Ruben Hinojosa, Texas                John R. ``Randy'' Kuhl, Jr., New 
                                         York


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 29, 2007...................................     1

Statement of Members:
    Boustany, Hon. Charles W., Jr., a Representative in Congress 
      from the State of Louisiana................................     3
    Davis, Hon. Susan A., a Representative in Congress from the 
      State of California, question for the record...............    77
    Fortuno, Hon. Luis G., a Resident Commissioner from the 
      Territory of Puerto Rico, submissions for the record:
        Letter from Alpidio Rolon, president, Puerto Rico chapter 
          of the National Federation of the Blind................    64
        Letter from Maria Miranda, director of the technical 
          assistance program, University of Puerto Rico..........    66
    Hare, Hon. Phil, a Representative in Congress from the State 
      of Illinois, submissions for the record:
        Letter from Illinois Positive Behavior Intervention and 
          Support Program (PBIS).................................    58
        Letter from American Occupational Therapy Association 
          (AOTA).................................................    62
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Letter from the National School Boards Association (NSBA)    89

Statement of Witnesses:
    Cort, Dr. Rebecca H., deputy commissioner, Office of 
      Vocational and Educational Services for Individuals with 
      Disabilities (VESID), New York State Education Department..     8
        Prepared statement and NCLB Issue Briefs.................    10
    Hardman, Dr. Michael L., dean-designate, College of 
      Education, University of Utah..............................    44
        Prepared statement of....................................    47
    Henderson, William, Ed.D., principal, the O'Hearn Elementary 
      School.....................................................    51
    Quenemoen, Rachael, senior research fellow, National Center 
      on Education Outcomes, University of Minnesota.............    23
        Prepared statement of....................................    26
        Response to questions for the record.....................    78
    Rhyne, Jane, Ph.D., assistant superintendent, Programs for 
      Exceptional Children of the Charlotte-Mecklenburg Schools..     4
        Prepared statement of....................................     6


                            HOW NCLB AFFECTS
                       STUDENTS WITH DISABILITIES

                              ----------                              


                        Thursday, March 29, 2007

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:30 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Dale Kildee 
[chairman of the subcommittee] presiding.
    Present: Representatives Kildee, Davis of California, 
Payne, Holt, Sarbanes, Sestak, Loebsack, Hare, Woolsey, Castle, 
Fortuno, Platts, and Boustany.
    Staff present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Alice Cain, Senior Education Policy 
Advisor (K-12); Alejandra Ceja, Senior Budget/Appropriations 
Analyst; Adrienne Dunbar, Legislative Fellow, Education; Amy 
Elverum, Legislative Fellow, Education; Denise Forte, Director 
of Education Policy; Lloyd Horwich, Policy Advisor for 
Subcommittee on Early Childhood, Elementary and Secondary 
Education; Lamont Ivey, Staff Assistant, Education; Ann-Frances 
Lambert, Administrative Assistant to Director of Education 
Policy; Jill Morningstar, Education Policy Advisor; Alex Nock, 
Deputy Staff Director; Joe Novotny, Chief Clerk; Lisette 
Partelow, Staff Assistant, Education; Rachel Racusen, Deputy 
Communications Director; Theda Zawaiza, Senior Disability 
Policy Advisor; James Bergeron, Minority Deputy Director of 
Education and Human Resources Policy; Robert Borden, Minority 
General Counsel; Steve Forde, Minority Communications Director; 
Jessica Gross, Minority Deputy Press Secretary; Taylor Hansen, 
Minority Legislative Assistant; Susan Ross, Minority Director 
of Education and Human Resources Policy; and Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel.
    Chairman Kildee [presiding]. A quorum being present, the 
hearing of the subcommittee will come to order.
    And Mr. Castle, my ranking minority member, understands why 
I am doing this, and I do it with his full concurrence. He will 
be here shortly--not only my ranking Republican member, but a 
very dear friend.
    Pursuant to committee rule 12(a), any member may submit an 
opening statement in writing which will be made part of the 
permanent record.
    I now recognize myself, to be followed by Ranking Member 
Castle, for an opening statement.
    I am pleased to welcome my fellow subcommittee members, Mr. 
Hare, who is here this morning, the public and particularly our 
witnesses on how the No Child Left Behind affects children with 
disabilities.
    The bottom line as we go through these hearings is: Does No 
Child Left Behind help, hurt or keep about the same what we 
have done for children with disabilities? And if you can help 
us on that, that will be extremely helpful to us.
    Dr. Boustany, good to see you. And I will call upon you in 
just a minute, and you can make the opening statement.
    Dr. Boustany. Thank you.
    Chairman Kildee. Providing for the education of children 
with disabilities has been a top priority for me for many 
years. During my 12 years in the Michigan legislature, I 
authored the state's special education law even before Congress 
passed education for all handicapped children in 1975. And 
Michigan was ahead of that.
    The Education for all Handicapped Children Act, today we 
call it the Individuals with Disabilities Act, or IDEA, was a 
watershed for children with disabilities and their families. 
Before IDEA, more than 1 million children with disabilities 
were excluded entirely from our education system. And most of 
those who were not excluded had only very limited access.
    IDEA supporters--and it passed the House by a vote of 404 
to 7 back in those days--recognized that that situation was 
unconscionable and resolved that children with disabilities, 
like all children, deserve the dignity of an education. The 
government's role is to promote, protect, defend and enhance 
human dignity. And IDEA certainly is part of that.
    Today's hearing is about the No Child Left Behind Act, not 
IDEA itself, but they certainly overlap one another. The same 
principle, dignity, underlies the inclusion of children with 
disabilities in No Child Left Behind.
    Children with disabilities must overcome unique hurdles to 
get their education. But No Child Left Behind recognizes that 
in the vast majority of cases that doesn't mean that these 
children can't achieve what their non-disabled peers achieve, 
only that they may need special help to achieve it.
    Our witnesses today will give specific examples of how they 
have provided that help and what it has meant for children with 
disabilities. Unfortunately the President's proposal to cut 
special education funding by $200 million is not the kind of 
help we need at this time, nor is the continued under-funding 
of No Child Left Behind. Cumulatively No Child Left Behind has 
been under-funded by over $70 billion.
    As we will hear from our witnesses, to improve special 
education programs, we must strengthen general education 
programs because that is where so many special education 
students are and where they belong.
    For the same reason, we will hear about the need to prepare 
all teachers to work with all students, not just general 
education or special education students. And we will hear many 
suggestions about how to improve No Child Left Behind to ensure 
that it accounts for the complexities that states, school 
districts, and schools must address in educating and assessing 
students with disabilities.
    I hope that today's hearing will help us understand these 
issues better, which are some of the most difficult and 
important ones in the law. And I look forward to working 
together with my ranking member, Mr. Castle, Chairman Miller 
and Ranking Member McKeon and with all the members of the 
committee on a bipartisan reauthorization of No Child Left 
Behind.
    I now yield to my good friend, Congressman Boustany.
    Dr. Boustany. Thank you, Mr. Chairman.
    Ranking Member Castle was detained at this time. And I am 
hoping he will make it, but I will fill in in his absence.
    I would like to say good morning to all of you.
    I would like to thank my colleagues for joining me here 
today for the latest in our series of hearings on No Child Left 
Behind.
    I would also like to thank Chairman Kildee for his 
continued dedication to hearing from education leaders around 
the country, and all of you for being here today to testify.
    Today's hearing will focus on how students with 
disabilities are excelling in public school. Additionally, I 
hope that we will examine how these students are evaluated, how 
effective those evaluation measures are, and whether or not 
there is enough flexibility granted to states and school 
districts by the Department of Education with regard to this 
student sub-group.
    First, let us not lose sight of the fact that No Child Left 
Behind was crafted under the guiding principle that all 
students can learn. Students with special needs are certainly 
no exception.
    Because of that, under No Child Left Behind, schools are 
held to higher standards and held accountable for the academic 
achievement of all the children, including special education. 
Indeed, the evaluation of this student sub-group is an 
essential component of our discussions on No Child Left Behind 
and a window into the effectiveness of our current systems of 
evaluation and accountability.
    With regard to students with disabilities, No Child Left 
Behind affirms our belief that a child should not be discounted 
simply because he or she doesn't learn at the same rate or in 
the same manner as other students.
    Moreover, the Individuals with Disabilities Education Act, 
which Congress renewed in 2004, also requires that all students 
with disabilities be appropriately assessed on state 
assessments and within the context of a student's 
individualized education program and allowing for enhanced 
flexibility and personalization within the student's learning 
experiences.
    I look forward to today's testimony on accountability 
standards at the local and state level. But more importantly, I 
look forward to hearing about what is being done to meet the 
goals that we have set. I am certain that this hearing will 
build upon previous hearings in this series.
    And I am eager to hear the unique perspectives of our 
witnesses. And I extend a warm welcome to them.
    And with that, Mr. Chairman, I yield back.
    Chairman Kildee. Thank you very much, Dr. Boustany. And I 
certainly appreciate personally your deep and abiding interest 
in this area of special education.
    Without objection, all members will have 7 calendar days to 
submit additional materials or questions for the hearing 
record.
    I would like now to introduce the very distinguished panel 
of witnesses here with us this morning.
    Dr. Jane Rhyne is the assistant superintendent for programs 
for exceptional children in the Charlotte-Mecklenburg Schools, 
a district with 129,000 students in North Carolina. Dr. Rhyne 
works with her general education colleagues to ensure that the 
district's special education program is woven into every aspect 
of the school system.
    Dr. Rebecca Cort is a deputy commissioner of the New York 
State Education Department's office of vocational and 
educational services for individuals with disabilities. Dr. 
Cort oversees special education services for more than 400,000 
students.
    Rachel Quenemoen is a senior research fellow at the 
National Center on Educational Outcomes at the University of 
Minnesota. For the past 10 years, she has worked at the 
national and state levels on educational reform efforts 
concerning standards-based reforms and students with 
disabilities.
    Dr. Michael Hardman is chair of the University of Utah's 
department of special education and recently was appointed dean 
of the university's college of education. He also was past 
president for the Higher Education Consortium for Special 
Education and a member of the board of directors for the 
Council for Exceptional Children.
    Dr. William Henderson has been the principal of the Patrick 
O'Hearn Elementary School in Dorchester, Massachusetts since 
1989. He has received numerous awards during his career, 
including the U.S. Department of Health and Human Services 
Outstanding Americans Award and the city of Boston's Henry L. 
Shattuck Public Service Award.
    And I welcome all our witnesses.
    For those who may have not testified before this 
subcommittee, I would explain our lighting system. We have a 5-
minute rule here. Everyone, including members, is limited to 5 
minutes of presentation or questioning. The green light will be 
illuminated when you begin to speak. And when you see the 
yellow light, it means that you have 1 minute remaining. When 
you see the red light, it means that your time is expired; you 
need to conclude your testimony. There is no ejection seat, 
however, so we will let you finish your thought or your 
paragraph. [Laughter.]
    And, Dr. Henderson, if you wish, I will gently note when 
you have 1 minute left and when your time is expired.
    Please be certain as you testify to turn on and speak into 
the microphone in front of you and turn it off when you are 
finished.
    We will now hear from our first witness, Dr. Rhyne.

   STATEMENT OF JANE RHYNE, PH.D., ASSISTANT SUPERINTENDENT, 
   PROGRAMS FOR EXCEPTIONAL CHILDREN, CHARLOTTE-MECKLENBURG 
                            SCHOOLS

    Ms. Rhyne. Good morning, Chairman Kildee, Ranking Member 
Castle and members of the subcommittee. I am Jane Rhyne, 
assistant superintendent for programs for exceptional children 
in the Charlotte-Mecklenburg Schools, Charlotte, North 
Carolina. I am pleased to be here today to testify on behalf of 
our superintendent, Peter C. Gorman, and our board of 
education.
    CMS has about 129,000 students, and we are growing. 
Minority students are the majority. Almost half live in 
poverty. About a tenth speak English as a second language. And 
over a tenth are students with disabilities.
    CMS has been recognized in numerous ways as one of the 
highest achieving urban districts in America. For example, in 
the National Assessment of Educational Progress, CMS 
outperformed the nation and the state in three of four reading 
and math tests. And there is additional information about 
accolades about Charlotte in my written testimony.
    During the first year of NCLB, I had the privilege of 
appearing before this committee. I testified then that the 
instructional attention to students with disabilities had 
clearly increased with the new federal disaggregated 
accountability requirements. This is still true. Standards-
based curriculum and instruction have been provided to a 
broader range of students with disabilities. Teachers are 
demonstrating that this group of children can make significant 
progress in the general curriculum if given the opportunity and 
effective teaching.
    The number of students with disabilities achieving in 
general education in CMS has definitely increased. So I support 
the basic concepts of NCLB and its attention to the performance 
of students with disabilities. However, I do have some 
concerns.
    States are allowed to ignore the academic performance of 
significant numbers of children through unnecessarily high sub-
group minimums. This invites the manipulation of NCLB 
accountability and allows some districts to escape portions of 
sub-group accountability, particularly for students with 
disabilities.
    As an urban special educator, I believe equity for our 
students is extremely important. So is a level playing field 
for urban districts. In CMS, our students with disabilities 
continue to make progress in state assessments, as our written 
testimony shows. However, based on projections of current 
performance, I do not expect 100 percent of them to be 
proficient by 2014.
    For those students who have not attained proficiency, their 
progress within performance levels continues to be important 
and carefully monitored. There is almost universal agreement 
among educators that adding a growth model to NCLB will improve 
the act. North Carolina has been selected as a pilot to 
demonstrate this.
    I am concerned that significant progress below proficiency 
may not be recognized. I believe that acknowledging such 
progress would mute criticism of NCLB regarding the performance 
of students with disabilities as well as the questionable 
claims that this sub-group is responsible for the labeling of 
large percentages of schools as failing.
    In 2004, the Department of Education provided flexibility 
by allowing districts to deem as proficient up to 1 percent of 
students with significant cognizant disabilities using 
alternate standards and assessments. Recently additional 
flexibility was provided by allowing districts to deem as 
proficient up to 2 percent of other students with disabilities 
using regular standards and alternate assessments. I think a 
better way to measure this success is through a growth or a 
progress model.
    NCLB emphasizes that quality teaching is key to student 
academic performance. A particular challenge, however, is the 
requirement that special education teachers be highly 
qualified.
    Sometimes this requires multiple certifications, which 
creates two problems. First, there is a national shortage of 
special education teachers. Second, special educators who teach 
content subjects must be certified in these areas. Finding 
special ed teachers with one certification has been difficult. 
Finding teachers with two or more has been almost impossible. 
There needs to be flexibility in these standards for them.
    At CMS we have addressed these certification issues 
partially through the use of inclusive practices where we team 
highly qualified general and special ed teachers in the 
classroom. Our data has shown that all students benefit, both 
students with disabilities and general ed students. I still 
believe that NCLB is focused on the right children.
    Further refinements to acknowledge student progress in the 
accountability and assessment system, to enhance focus and 
resources on effective instructional practices, and to allow 
flexibility with highly qualified provisions would help 
overcome many of the operational problems that attract so much 
attention at the local level.
    Thank you.
    [The statement of Mr. Rhyne follows:]

  Prepared Statement of Jane Rhyne, Ph.D., Assistant Superintendent, 
 Programs for Exceptional Children of the Charlotte-Mecklenburg Schools

    Good morning, Chairman Kildee, Ranking Member Castle and members of 
the subcommittee.
    I am Jane Rhyne, Assistant Superintendent for Exceptional Children 
in the Charlotte-Mecklenburg Schools (CMS) in North Carolina. I am 
pleased to testify today on behalf of Superintendent Peter C. Gorman 
and the Charlotte-Mecklenburg Board of Education. I will discuss how 
children with disabilities have been affected by the No Child Left 
Behind (NCLB) Act.
    I am responsible for the education of and support services for more 
than 14,000 students with disabilities in Charlotte and Mecklenburg 
County. I oversee program planning, implementation and monitoring, 
curriculum and instruction, instructional interventions and student 
progress.
    Let me quickly describe our district for you. CMS has about 133,000 
students pre-kindergarten through twelfth grade. We're adding about 
5,000 students each year. For this school year, the district has 42.4 
percent African-American students, 36.2 percent white, 13.6 percent 
Hispanic, 14.3 percent Asian and 3.5 percent multiracial or Native 
American students. Almost half--45.5 percent--of our students qualify 
for free or reduced-price lunch. Nearly 15,000 of our students come 
from homes where English is not the native language. And we have 14,502 
students with disabilities.
    CMS has been recognized in numerous ways as one of the highest-
achieving urban districts in America. Our student academic performance 
compares favorably with that of many urban districts: 86 percent of our 
fourth-graders are at or above grade level in reading in comparison to 
85 percent of all fourth-graders statewide. For mathematics, 69 percent 
of all fifth-graders are at or above grade level compared with 64 
percent across the state. We participate in the trial urban initiative 
of the National Assessment of Educational Progress--called the Nation's 
Report Card -and have seen strong results there, too. Charlotte-
Mecklenburg Schools outperformed the nation and North Carolina in three 
of four reading and math tests at grades four and eight and scored 
within two points in the other area. Nine percent of CMS students 
achieved at the advanced level on the NAEP test in grade four reading 
and math and grade eight math--more than the nation, more than North 
Carolina, and more than most states.
    More than half of our graduating students last year had taken one 
or more advanced courses in high school and Newsweek magazine in 2006 
put three of our high schools on its list of the Top 100 high schools 
in America. And we were the first large county-wide school district to 
be accredited as a high quality district by the Southern Association of 
Colleges and Schools. Fifty-seven percent of 2006 graduates completed 
at least one AP or IB course. The number of African-American students 
enrolling in AP courses increased from 341 students in l995-96 to 2,764 
in 2005-06. The average score for our students who ranked in the top 10 
percent of scores on the SAT was 1207, higher than North Carolina 
(1179) and the nation (1184).
    In March of 2004, during the first full year of NCLB 
implementation, I had the privilege of appearing before this Committee. 
I testified then that I had seen first-hand in my school district and 
in visits to other districts that the instructional attention to 
students with disabilities had clearly increased with the new federal 
disaggregated accountability requirements.
    This is still true. Standards-based curriculum and instruction has 
been provided to a broader range of students with disabilities. 
Teachers and principals are demonstrating that this group of children 
can make significant progress in the general curriculum if given the 
opportunity and effective teaching. The number of students with 
disabilities being taught in general education classes in CMS has 
increased by 10.25 percent since the 2004-2005 school year. 
Participation in regular pre-kindergarten programs for students age 
three to five has increased 21.5 percent since the 2004-2005 school 
year. When we pair general and special education teachers in a 
classroom, the performance of all students rises. We have seen 
significant increases in performance on state reading and math tests 
for not only students with disabilities but for general education 
students as well.
    So I support the basic concepts of NCLB and its attention to the 
performance of students with disabilities. However, I also have some 
concerns. States are allowed to ignore the academic performance of 
significant numbers of children through unnecessarily high subgroup 
minimums or N-sizes. This state flexibility invites the manipulation of 
the NCLB accountability system and operationally allows some schools 
and some school districts to escape portions of subgroup 
accountability, particularly for students with disabilities. As an 
urban educator and a special educator, I believe equity for our 
students is extremely important. So is a level playing field for urban 
districts.
    In school year 2002-03, 34.6 percent of our students with 
disabilities in grades 3 through 8 achieved proficiency on our state 
assessments, compared to 42.2% of students in grades 3 through 8 in the 
2004-05 school year. On state high school tests, 24.3 percent of 
students passed in 2002-03 compared to 35 percent in 2005-2006. So we 
are making progress. However, based on the current North Carolina 
academic standards and projections of current performance, I do not 
expect 100% of our students with disabilities to be proficient by 2014. 
For those students who have not attained proficiency, their progress 
within performance levels continues to be important and carefully 
monitored.
    There is almost universal agreement among educators that adding a 
growth or progress model to NCLB would improve the act. North Carolina 
is one of the pilot projects selected by the Department of Education to 
demonstrate such a growth model. But this pilot growth model, as I 
understand it, is tied to a student's trajectory for attaining 
proficiency--and I am concerned that even significant progress below 
proficiency may not be recognized. I also believe that recognizing such 
progress would mute criticism of NCLB regarding the performance of 
students with disabilities, as well as the questionable claims that 
this subgroup is responsible for the labeling of large percentages of 
schools as failing. We should give schools proper credit for the 
academic progress of students with disabilities and other students.
    In March of 2004, then-Education Secretary Rod Paige had just 
announced the flexibility to assess one percent of students with 
significant cognitive disabilities against alternate standards and 
using alternate assessment. At that point, I estimated that there were 
at least 1.5 percent of students whose disabilities would prevent them 
from doing the same level of academic work as their age-mates. In 
recent years the Department of Education has proposed additional 
flexibility for another two percent of students to be assessed with 
modified tests. North Carolina has implemented this by allowing up to 
another two percent of students with disabilities to demonstrate 
proficiency with a modified assessment. In Charlotte-Mecklenburg 
Schools, only 14.3% of these students have done so on the North 
Carolina modified assessment. The one and two percent involve most of 
our students with mental retardation, multiple disabilities, autism and 
a few with other disabilities.
    Some students with disabilities will not make one year's worth of 
academic growth by the end of the school year. These students will 
achieve, but they need more time and properly designed instruction. A 
better way to measure their success is through a growth or progress 
model.
    No Child Left Behind emphasizes that quality teaching is key to 
student academic progress. A particular challenge, however, is the NCLB 
requirement that special education teachers be highly qualified. In 
some instances, this requires multiple certifications. This situation 
creates two problems. First, there is a national shortage of special 
education teachers. Teachers who provide special education must now 
meet rigorous state certification standards to show that they are 
highly qualified to do so. Second, special education teachers who 
provide content instruction at the secondary level, such as math, must 
also be certified in the content area that they are teaching. Finding 
special education teachers with one certification has been difficult; 
finding teachers with dual certification has been almost impossible. 
This problem becomes even more complex with special education teachers 
who teach in self-contained classrooms. These teachers are required to 
have certification not only in special education but also in all the 
subjects taught in the classroom--math, English, science, social 
studies. There needs to be flexibility in the standards for these 
teachers.
    At CMS, we have addressed these certification issues partially 
through the use of inclusive practices. Highly qualified special and 
general education teachers team together to co-teach in general 
education classrooms that include both students with disabilities and 
their general education peers. The general education teacher has 
certification in the content area and the special education teacher has 
certification in special education. This teaching team provides the 
expertise of the special educator, a master at differentiated 
instruction, and the general educator, an expert in curriculum content. 
All students benefit.
    For example, in our district, students with disabilities who were 
co-taught performed at higher levels and made more progress in reading 
at grades three and four and in math at grades six, seven and eight, as 
measured by state tests. We have found that including students with 
disabilities in the classroom does not hinder the performance of non-
disabled peers. For example, on the average, scores were higher and 
demonstrated improvement for non-disabled students in co-taught 
classrooms in reading for grades three, four, six and eight and in math 
for grades 3 through 8, as well as Algebra I and Geometry--as measured 
by state tests.
    I still believe that the No Child Left Behind Act is focused on the 
right children--those in greatest need of instructional attention and 
additional resources. Further refinements and revisions in the act to 
acknowledge student progress in the accountability and assessment 
system, to enhance the level of focus and resources devoted to 
effective instructional practices, and to allow sufficient flexibility 
to align our teacher qualifications to the instructional needs of our 
students would help overcome many of the operational problems that 
attract so much attention at the local level.
    Thank you.
                                 ______
                                 
    Chairman Kildee. Thank you very much.
    Dr. Cort?

STATEMENT OF REBECCA CORT, PH.D., DEPUTY COMMISSIONER, NEW YORK 
     STATE EDUCATION DEPARTMENT, OFFICE FOR VOCATIONAL AND 
     EDUCATIONAL SERVICES FOR INDIVIDUALS WITH DISABILITIES

    Ms. Cort. Good morning, Chairman Kildee and subcommittee 
members. And thank you for this valuable opportunity. I am 
Rebecca Cort. I serve as the State director for special 
education and adult vocational rehabilitation in New York 
State.
    I want to begin by affirming that the New York Board of 
Regents and the New York State Education Department are strong 
supporters of the high expectations for students and the 
accountability for schools and districts as set by NCLB.
    The board of regents remains committed to preparing all 
students to be educated and productive citizens in the 21st 
century. And we believe that NCLB can play an important role in 
achieving that goal for the children of New York State. We have 
seen steady progress in the outcomes for students with 
disabilities since the regents' reform efforts began and NCLB 
was passed. But their performance continues to be unacceptably 
low.
    To improve these outcomes and to ensure that we rely on 
accurate data, there are several issues that require your 
attention. Most significantly, NCLB needs to acknowledge and 
accommodate the individual student differences that are at the 
core of the Individuals with Disabilities Education Act. We 
agree a large majority of students with disabilities should be 
receiving instruction on the general education learning 
standards and should be able to master these standards, given 
appropriate research-based instruction.
    However, students with disabilities represent a very broad 
continuum of cognitive functioning from profoundly 
developmentally delayed to gifted. I want to address today the 
2 percent, or gap students, whose disabilities prevent them 
from mastering the general education learning standards at the 
same level or rate as their non-disabled peers, even when they 
receive appropriate instruction. We believe that this group 
includes two separate subsets of students that require 
different options under NCLB.
    The first subset consists of students who will be able to 
earn a regular diploma and learn the general education 
standards but who do it at slower and often inconsistent rates. 
These students don't require modified standards or modified 
assessments. But they do require the time to learn and an 
opportunity to demonstrate that learning.
    We ask that NCLB clearly authorize the students whose 
individualized education program, IEP, recommends instruction 
at a 4th-grade level in math and 3rd-grade level in English 
language arts to be able to participate in assessments that 
correspond to these different levels.
    Currently in New York, if such a student is actually 5th 
grade chronological age, many of them are being required to 
take 5th-grade tests on content that they have never received 
instruction on. The IEP should indicate the appropriate 
instructional levels and assessments for each student with a 
disability. And that recommendation should be recognized and 
accepted under NCLB's accountability system.
    The second subset of students within this 2 percent group 
are those whose disabilities are so severe that they cannot 
earn a regular New York state diploma but who are functioning 
higher than the 1 percent group appropriate for alternate 
assessments. For these students, states must be permitted to 
develop truly modified standards and modified assessments that 
will reflect substantively different content from the general 
education standards.
    The draft regulations issued by USED indicated that 
modified standards and modified assessments could reduce the 
depth and breadth of a state's learning standards but they 
could not represent a reduction in the grade level or base 
content of the standards and they must provide access to a 
regular high school diploma.
    We believe that teaching a student half of algebra will not 
produce proficiency in algebra or prepare the student to move 
on to the subsequent grade's course work. The modified 
standards instead need to be designed to maximize the 
functioning level of students who need to leave school prepared 
for employment and independence.
    Currently, districts and schools do not receive any 
recognition under NCLB for a student's mastery of a career and 
vocational education program that is relevant, meaningful, and 
results in a pathway to competitive employment unless that 
student also receives a high school diploma.
    NCLB also anticipates the students will meet all of their 
graduation requirements within 4 years of entering grade 9. In 
New York many students with disabilities graduate after 5 or 
even 6 years. Schools that hold on to these students should be 
given credit, not penalized for their efforts and their 
success. For students with disabilities, again, it is the IEP 
that should indicate the anticipated time required to meet 
graduation requirements. And schools should be held accountable 
for that standard.
    Even if these changes are instituted, it is likely that we 
will still see a number of schools identified for not meeting 
AYP with this sub-group. Currently, regardless of the reason 
for identification, the consequences are uniform for all 
schools, even though required options such as school choice and 
supplemental services are often unavailable to students with 
disabilities. If only students with disabilities fail to meet 
AYP targets, we believe that funding should be targeted to this 
sub-group and allowed to be spent on interventions that will 
meet the unique needs of students with disabilities.
    Finally, we recommend that NCLB incorporate language from 
the IDEA regarding the use of response to intervention systems. 
RTI is not a method for helping a district identify students 
with disabilities as its primary purpose. Rather, it is a 
method for teaching and monitoring the progress of all students 
that must be driven first and foremost by general education 
teachers in a general education classroom with the support of 
strong building leadership and professional development.
    NCLB's greatest potential benefit to students with 
disabilities may depend on its ability to ensure strong general 
education programs that eliminate inappropriate referrals and 
increase the opportunities for meaningful integration of 
students with disabilities into general ed environments. 
Incorporating RTI into NCLB would help accomplish that goal.
    Thank you. And I welcome your questions.
    [The statement of Ms. Cort follows:]

Prepared Statement of Dr. Rebecca H. Cort, Deputy Commissioner, Office 
      of Vocational and Educational Services for Individuals with 
       Disabilities (VESID), New York State Education Department

    I would like to thank the Chairman and members of the Subcommittee 
for this valuable opportunity to testify on How NCLB Affects Students 
with Disabilities. I am Rebecca Cort, Deputy Commissioner of the Office 
of Vocational and Education Services for Students with Disabilities 
(VESID) within the New York State Education Department. As such, I am 
in the unique position of being the state director for both preschool 
to Grade 12 special education services as well as for adult vocational 
rehabilitation.
    I am submitting with my testimony a number of detailed briefings 
that discuss New York State's position regarding areas in NCLB where we 
believe there are significant opportunities for revision and 
improvement during the reauthorization process. However, I will focus 
here on several issues that have had the greatest impact on students 
with disabilities.
    The New York Board of Regents and the New York State Education 
Department have been strong supporters of the high expectations set by 
NCLB. This focus closely parallels initiatives undertaken in New York 
prior to the enactment of NCLB. The Regents recognized that, within 
many schools and districts, the expectations for students with 
disabilities were far too low and that they were not being provided 
with the same access to rigorous course work as their non-disabled 
peers. Even before NCLB, the New York State Board of Regents 
established requirements that all students must be prepared to meet the 
same high level learning standards and to participate in rigorous state 
assessments as a condition for graduating from high school with a 
regular high school diploma. New York's Board of Regents remain 
committed to preparing all students to be educated and productive 
citizens in the 21st century and we believe that NCLB can play an 
important role in achieving that goal for the children of New York 
State.
    However, there are a number of areas where NCLB has reduced the 
likelihood of meeting that goal and where it is having a 
disproportionately negative impact on students with disabilities. The 
first, and most significant, area concerns the lack of recognition of 
the extremely broad range of characteristics and developmental levels 
of students with disabilities. NCLB has not integrated into the law the 
elements needed to ensure consideration of those individual student 
differences that are at the core of the Individuals with Disabilities 
Education Act (IDEA). This has led to the identification of districts 
as needing improvement as a result of the assessment outcomes for 
students with disabilities when, in fact, the current system does not 
allow an accurate measurement of districts' and schools' cumulative 
impact on their performance. In many instances, students with 
disabilities now must be tested on what they have never been taught 
instead of being allowed to demonstrate what they have learned.
Assessments for the 2% ``Gap'' Students
    Students with disabilities represent a broad continuum of cognitive 
functioning from profoundly developmentally delayed to gifted. Those 
with severe to profound mental retardation have been accommodated under 
NCLB through the allowance for 1% of students who can be counted as 
proficient based on an alternate assessment aligned to alternate 
achievement standards. In New York, our guidance to districts indicates 
that students participating in the alternate assessment must have a 
severe cognitive disability and significant deficits in communication/
language and in adaptive behavior. Most of the students who meet the 
criteria for the alternate assessment do not achieve higher than a 
first grade level. New York agrees that, in general, these students 
should not exceed 1% of the school district population.
    However, the lack of options available for other students with 
disabilities is a significant problem. We welcomed the US Department of 
Education's (USED) promise of increased flexibility for an additional 
2% of students whose disabilities prevent them from mastering the 
general education learning standards at the same level and rate as 
their non-disabled peers. However, we believe that the proposed 
regulations that would guide the development of ``modified standards'' 
and ``modified assessments'' for this group of students were not 
sufficiently flexible. Further, they interpreted the law as requiring 
modified assessments to be aligned with the general education learning 
standards at the grade level of non-disabled chronological peers. While 
the regulations indicated that modified standards could represent 
reduced ``depth and breadth'' of a state's learning standards, they 
could not represent a reduction in the grade level of the content of 
the standards for any subject area to be measured.
    We agree that the large majority of students with disabilities 
should be receiving instruction based on the general education learning 
standards and should able to master these standards given appropriate 
research-based instruction. But there exists a band of students (the 2% 
or ``gap'' students) who are not able to master grade-level standards 
at the rate and/or level of their non-disabled chronological peers even 
with appropriate instruction. We believe that this band includes two 
separate subsets of students with disabilities that require different 
options under NCLB.
    The first subset consists of students with disabilities who, while 
able to make progress toward a regular diploma, learn at a slower and 
often inconsistent rate. Many students with disabilities require and 
receive one level of instruction in reading and language arts and 
another in mathematics or other content areas as a result of the 
individualized education program (IEP) recommendations that drive 
special education service delivery. Students who do not have the 
language and vocabulary or critical thinking skills necessary to 
benefit from instruction at the level of their non-disabled peers 
should participate in curriculum appropriate to their developmental 
levels that they can master and that can provide them with the 
precursor skills necessary to move to the next level.
    Reducing the ``depth and breadth'' of 9th grade geometry or biology 
may appear to provide a meaningful option for some students but it will 
not result in the level of mastery needed to meet New York's standards 
for course completion, nor the readiness to move on to the subsequent 
grade's course work, nor the ability to successfully complete high 
stakes exit examinations. USED's current interpretation is that any 
modified set of learning standards and participation in any modified 
assessment that measures this reduced level of instruction must still 
permit the awarding of a regular high school diploma. For states such 
as New York, that are not willing to compromise the rigorous standards 
that have been set to earn a high school diploma, there are no real 
options.
    We ask that NCLB clearly indicate that this subset of students be 
allowed to proceed at a slower but equally rigorous pace as their non-
disabled peers. These students require neither modified standards nor 
modified assessments but they do require the time to learn and an 
opportunity to demonstrate that learning. NCLB must permit a student 
whose IEP recommends instruction in the general education curriculum at 
a fourth grade level in mathematics and third grade level in English 
language arts to participate in assessments that correspond to these 
different levels. A school will then be held accountable for that 
student's learning on subject matter they have been taught rather than 
for the different subject matter that has been taught to the student's 
chronological peers in the classroom down the hall. The IEP team should 
determine and clearly indicate on the IEP the appropriate instructional 
levels and assessments for each student with a disability.
    Any reauthorization of NCLB also must provide specific options for 
a second subset of students with disabilities within this 2% group. 
These students are those whose severe disabilities preclude them from 
meeting the high level of learning required to earn a regular New York 
State diploma but whose cognitive ability and developmental levels 
exceed the first grade level maximum designated for the 1% of students 
appropriate for the alternate learning standards and alternate 
assessment. They include those who exhibit mild to moderate mental 
retardation or some identified with autism spectrum disorders or severe 
traumatic brain injuries.
    States must be permitted to develop both these modified standards 
and the modified assessments that will measure proficiency on these 
standards. These modified standards will be substantively different 
from the general education standards but have a range that exceeds the 
current alternate standards. They need to be designed to maximize the 
functioning level of students who need an instructional program that 
will allow them to leave school prepared for employment and 
independence, even if they cannot earn a regular high school diploma. 
Many students with disabilities who now leave school without either a 
diploma or adequate work readiness skills are more likely to remain if 
they were to be offered a career and technical program that was 
relevant and meaningful and resulted in a pathway to competitive 
employment. Districts and schools now have little incentive to develop 
innovative programs based on modified standards as they are unable to 
receive any recognition under NCLB for a student's mastery of such a 
modified curriculum, even if it reflects the annual goals and 
transition plans recommended on a student's IEP.
    While I have not discussed the issue of growth models and value 
added assessments here, I have attached more detailed recommendations 
on this issue. We believe that all states should have the option of 
using these models as new assessments, including those based on 
modified standards, are developed. The capacity to capture the rate of 
growth will be especially useful in evaluating outcomes for students 
with disabilities who have very variable starting points.
Four Year Graduation Standard
    While these comments reflect the changes required to address the 
needs of what should be a very limited percentage of students, an 
additional change is needed for what could be a larger number of 
students with disabilities. The current requirements under NCLB 
anticipate that students will meet all high school requirements and 
then receive a high school diploma within four years of entering 9th 
grade. This is not a realistic expectation for many students with 
disabilities and prevents recognition of the laudable efforts of 
districts and schools that encourage students to remain in school for a 
fifth and sixth year as they move toward the completion of all course 
work and required assessments. In New York, many more students with 
disabilities graduate after five years than after four years.
    States with rigorous graduation standards require an option that 
allows students extra time to receive the special education instruction 
and support services they need even though this may prohibit a full 
course load every semester. This option must acknowledge and award 
credit to districts and schools that are able to achieve success and 
meet NCLB's goals after a student completes five or six years in high 
school. For students with disabilities, the IEP should indicate the 
anticipated time required to meet graduation requirements and schools 
should be held accountable for meeting that standard, based on 
individual student needs.
Differential Consequences for Different Subgroups Identified
    Even with the addition of these critical elements to a reauthorized 
NCLB, there are schools and districts who will continue to struggle to 
adequately address the needs of the population of students with 
disabilities. We hope that the access to appropriate assessments will 
present a fairer measurement of schools' performance and reduce 
inappropriate identification of those schools and districts that are 
being successful. However, we know that a very substantial number of 
schools are being identified as in need of improvement as a result of 
the failure of the subgroup of students with disabilities to make AYP. 
(Last year in New York, 31% of schools identified failed to make AYP 
only for the subgroup of students with disabilities on the grades 3-8 
English Language Arts exams.)
    Yet the consequences of this identification are systemic and almost 
identical for all schools, regardless of the number or composition of 
the subgroups that are not achieving AYP. In fact, as currently 
implemented, many of the required options and reforms have the least 
impact on students with disabilities even if they are the only group 
triggering these actions. Options such as school choice are often 
unavailable to students with disabilities who are enrolled in unique 
programs that are not duplicated within other schools in the district. 
In addition, many supplemental educational services (SES) providers do 
not offer services that meet the needs of students with disabilities.
    States should not be required to impose uniform NCLB mandated 
sanctions such as school choice and supplemental educational services 
on schools or districts because of the failure of one or several 
subgroups of students to meet AYP targets. Schools should be able to 
target remediation or interventions based on the nature and extent of 
their failure to make AYP. If only students with disabilities fail to 
meet AYP targets, resources and remediation should be focused on those 
students. In these instances, funding should be allowed to be spent on 
creative, targeted alternatives to school choice and SES that will 
address the unique needs of students with disabilities.
Alignment with IDEA
    Finally, an examination of whole group and subgroup performance 
data reveal a strong correlation between poor performance for students 
with disabilities and poor performance for students in general 
education. While the IDEA's reauthorization included efforts to align 
it with NCLB, we now urge Congress to make a similar effort to align 
NCLB with IDEA. A number of critical elements within IDEA are more 
appropriately targeted to all students and should be incorporated into 
NCLB in order to ensure that struggling learners' needs are met in 
general education settings and to reduce the inappropriate referral and 
over-identification of minority students.
    We especially recommend that NCLB incorporate language regarding 
the use of Response to Intervention (RtI) systems to ensure that 
struggling schools understand the importance and benefit of 
implementing high-quality instruction and interventions to meet the 
needs of all students. Its inclusion in IDEA is causing RtI to be 
viewed as having a primary purpose of helping a district identify 
students with disabilities. This is not true. Rather, RtI is a method 
for teaching and monitoring the progress of all students that must be 
driven first and foremost by general education teachers in the general 
education classroom with the support of school building leadership and 
strong professional development.
    NCLB's greatest potential benefit to students with disabilities may 
depend on its ability to ensure strong general education programs that 
eliminate inappropriate referrals and increase the opportunities for 
meaningful integration of students with disabilities into productive 
general education environments staffed with highly qualified teachers 
who have the tools to meet the needs of all students.
Attachments
    NCLB Issue Briefs:
    <bullet> Assessing Students with Disabilities
    <bullet> Growth Models for State Accountability
    <bullet> Highly Qualified Teachers
    <bullet> Single Accountability Designation for Adequate Yearly 
Progress
    <bullet> Targeted Interventions and Differentiated Consequences for 
Schools and Districts Identified as In Need of Improvement
                                 ______
                                 
                                                        March 2007.

                            NCLB ISSUE BRIEF

Assessing Students With Disabilities

                              CURRENT LAW

            Title I, Part A, Section 1111(b)(3)--Academic Assessments
    <bullet> States are required to implement academic assessments in 
mathematics, reading or language arts and a third state selected 
indicator (in New York, science) to be used as the primary means of 
determining Adequate Yearly Progress (AYP) (students' continuous 
academic improvement toward 100 percent proficiency in 2014).
    <bullet> Alternate assessments may be used for students with the 
most significant cognitive disabilities, which 34 C.F.R. 
Sec. 200.13(c)(1)(ii) presently limits to 1 percent of all students in 
the grades assessed.

                            RECOMMENDATIONS

    Revise assessment systems and accountability practices for students 
with disabilities:
    <bullet> Allow states to develop modified assessments that measure 
the performance of a student with a disability toward modified state 
standards at the student's appropriate instructional level, as 
designated by the Individualized Education Program (IEP) team. These 
assessments should be designed to show what students know and to 
measure their growth over time.
    <bullet> Allow certain students with disabilities to participate in 
general education assessments based on general education learning 
standards that align with their instructional levels rather than their 
chronological age. The assessment levels should be determined by the 
IEP team and may be different levels for different content areas.
    <bullet> Establish a lower expected threshold for improvement for 
students with disabilities or authorize states to establish their own 
realistic and appropriate benchmark targets for incremental performance 
improvement to be applied uniformly at the state, district and school 
levels.
    <bullet> Authorize states to establish a threshold for the percent 
of students with disabilities that should be scoring at the proficient 
and advanced levels on alternate and modified standard assessments as 
well as instructional-level assessments that are not aligned with 
students' current grade level or with their chronological age. States 
should justify their decisions to the U.S. Department of Education 
(USED) when a threshold exceeds three percent of the total population 
tested.
    <bullet> Continue to allow states to include the proficient scores 
of students with the most significant cognitive disabilities based on 
alternate assessments in its calculations of AYP, provided that such 
scores do not exceed one percent of all students tested in the grades 
assessed in reading/language arts and in mathematics.
    <bullet> Direct USED to conduct research to identify the 
characteristics of the modified assessment population of students 
(e.g., the 2-3 percent) to ensure consistency of criteria across IEP 
teams, school districts and states.
    <bullet> Permit states to include as a third indicator of meeting 
AYP targets assessments that measure modified learning standards at the 
high school level reflecting postsecondary goals of competitive 
employment and independence when a regular high school diploma is not 
an appropriate outcome given the nature and severity of a student's 
specific disability.

                               RATIONALE

    NCLB does not ensure appropriate assessment options for the range 
of instructional levels and abilities of students with disabilities. 
Subjecting students at specific chronological ages to grade-level 
assessments that are measuring skills well beyond their capabilities 
and that do not reflect content that they have actually been exposed to 
is not true participation and does not provide meaningful data to 
measure progress toward the standards.
    Holding schools and school districts accountable for inappropriate 
achievement standards does not recognize the true value of a student's 
educational program and does not serve to challenge schools to improve 
results for students with disabilities. As a result, students with 
disabilities are tested on what they have never been taught instead of 
being able to demonstrate what they have learned.
    The U.S. Department of Education's (USED) proposed regulatory 
language regarding a modified standards and assessment option for an 
additional 2 percent of students (above the 1 percent of the most 
cognitively disabled) is not responsive to this issue, as it requires 
an assessment based on grade-level content standards with reduced depth 
and breadth that leads toward a regular diploma.
    Students in special education have a wide range of instructional 
levels, including those who learn at variable rates but can achieve a 
regular diploma, and those whose developmental disabilities result in a 
cognitive range that exceeds the alternate assessment levels--the 1 
percent of the most cognitively disabled--but does not equal their 
nondisabled peers. This latter group constitutes students who require 
modified standards that may focus on career and technical programs 
leading to competitive employment rather than modified grade-level 
content that leads to a regular diploma.
    If, as USED has indicated, modified learning standards and 
assessments must both simplify the required general education content 
and lead to a regular diploma, it is, in essence, requiring a reduction 
in states' graduation criteria for a portion of the population. This 
exceeds the federal authority to dictate a state's graduation standard.

                                 FACTS

    <bullet> In the 2005-06 school year in New York, 7,205 students 
with significant cognitive disabilities participated in the alternate 
assessment at the elementary, middle and high school levels. This is 
0.9 percent of all enrolled students tested on elementary level 
examinations and 0.8 percent of all students tested on middle level 
examinations.
    <bullet> New York assessment data shows that even in low and 
average need school districts where there is a higher level of 
expenditure per pupil, between 2 and 3 percent of the total population 
tested are students with disabilities with intellectual and cognitive 
disabilities that do not permit them to master the state's general 
education learning standards even with appropriate instruction. The 
results in these high resource districts show a lack of performance at 
the proficient level and failure to graduate with a regular diploma at 
a rate that generally exceeds 3 percent of the population.

                                RESEARCH

    <bullet> On December 15, 2005, USED published in the Federal 
Register (Volume 70, Number 240) proposed rules to amend regulations 
under NCLB Title I regarding school accountability for students with 
disabilities beyond those students with significant cognitive 
disabilities (1 percent of the total population) identified for 
participation in the alternate assessment. The notice stated ``* * * 
recent research indicates that there are other students, who, because 
of their disability, have significant difficulty achieving grade-level 
proficiency, even with the best instruction.'' The proposed regulations 
would permit States to develop modified achievement standards and 
assessments to address the needs of this segment of students with 
disabilities.
    The federal notice further stated, ``the best available research 
and data indicates that 2 percent, or approximately 20 percent of 
students with disabilities, is a reasonable cap.''
                                 ______
                                 
                                                        March 2007.

                            NCLB ISSUE BRIEF

Growth Models for State Accountability

                              CURRENT LAW

    NCLB requires schools to show increases in the percentage of 
students reaching proficiency in reading and math toward the goal of 
having all students performing at their appropriate grade level by 
2014. This is called making Adequate Yearly Progress (AYP).
    States must use a ``status model'' to measure students' academic 
progress. A status model measures progress by tracking improvement in 
the same grade over time. For example, a status model might compare the 
performance of students in fourth grade in a school in 2006-07 against 
the performance of a different group of students in fourth grade in 
2005-06. In contrast, a ``growth model'' measures the scores of the 
same students over time. So, a growth model might measure the 
percentage of fourth grade students in a school in 2006-07 who are 
proficient compared to the percentage of those same students who were 
proficient when they were third graders in 2005-06. A growth model 
would allow schools to determine which individual students need 
remediation help and target assistance to those students.
    Recognizing the potential of growth models for state accountability 
plans under NCLB, the U.S. Department of Education (USED) instituted a 
growth model pilot project in November 2005 under which it would 
approve up to 10 proposals. To date, Arkansas, Delaware, Florida, North 
Carolina and Tennessee have approved projects.

                            RECOMMENDATIONS

    <bullet> States should have the option of using a growth model, a 
status model, or a combination of both as they develop assessment and 
reporting systems that can support those options.
    <bullet> Use of a growth model should be permitted as an alternate 
to or an addition beyond the Safe Harbor provision of NCLB as a means 
to demonstrate Adequate Yearly Progress. Safe harbor allows a student 
subgroup to be considered as making AYP if it demonstrates at least a 
10% reduction in the gap between having all students proficient and 
their performance in the prior year. Safe harbor saves schools from 
being designated as in need of improvement.
    <bullet> Growth models should be based on students demonstrating 
progress toward proficiency in English language arts (ELA) and 
mathematics for graduation.

                               RATIONALE

    <bullet> The status model, used currently, does not account for 
significant progress made by schools and districts with historically 
low levels of achievement.
    <bullet> The goals of a growth model are to:
          ensure that states, districts, and schools can measure the 
        degree to which students are making progress at a sustained 
        rate so that students will achieve academic proficiency by the 
        time of graduation from high school;
          provide states, districts and schools with information so 
        they can better target resources to the districts, schools, and 
        groups of students within schools that are not on track towards 
        proficiency within an acceptable timeframe and have the most 
        need for remediation assistance;
          ensure that schools and districts in which students may be 
        underperforming but are making appropriate progress towards 
        proficiency are not categorized as poorly performing.
    By using both a status model and a growth model, states can better 
determine which districts and schools need targeted interventions and 
which can serve as models for moving the most challenged student groups 
towards proficiency.
    <bullet> Measuring the same group of students from one year to the 
next indicates how each individual student is performing and 
progressing academically.
    <bullet> USED should explore conducting a pilot project on ``value-
added'' models for state accountability. A value-added model is a type 
of growth model that uses a student's detailed background information 
and achievement data to predict growth and isolate the primary reason 
for a student's academic progress or lack of progress.
    <bullet> Governor Eliot Spitzer has proposed that New York use a 
growth model by the 2008-09 school year, subject to U.S. Department of 
Education approval.

                                RESEARCH

    There is no conclusive research at this time on this issue. Current 
practice appears to support these recommendations. Some of the research 
cited here discusses ``value- added'' models.
            Educational Measurement: Issues and Practice. Winter 2005
    Educational Measurement is the journal of the National Council on 
Measurement in Education.
    This special issue is devoted to empirical research on current 
accountability systems, i.e. their structure, their relationship to 
policy, and their impact on school reform movements. As the U.S. 
Department of Education did not approve growth accountability systems 
at the initial implementation of NCLB, this is the first cut of 
research on the impact of states' status models and testing policies. 
It is important work as it highlights both strengths and weaknesses of 
the first set of accountability systems and informs thinking as policy-
makers weigh movement to growth systems.
            Value Added Models in Education: Theory and Applications. 
                    Edited by Robert Lissitz (2005).
    This work contains 10 chapters authored by measurement 
professionals exploring the impact and structure of value-added 
modeling. The work is highly technical and all articles contain 
research as well as statistical models that value-added research may 
employ. Of particular note are articles on the design and 
implementation of differing value-added models for the Dallas School 
District and Tennessee's experience.
            Longitudinal and Value Added Modeling of Student 
                    Performance. Edited by Robert Lissitz (2005).
    This work contains 14 chapters that research and discuss the 
statistical methodologies that can be employed in value-added modeling 
for accountability systems. The book presents a variety of chapters 
regarding the theory and application of longitudinal (growth) modeling 
and value-added determinations of student achievement. The researchers 
who contributed to this work are recognized measurement experts from 
universities and testing houses.
            Standards for Educational Accountability Systems. National 
                    Center for Research on Evaluation, Standards, and 
                    Student Testing. Robert Linn et. al. Policy Brief 
                    5. Winter 2002
    This policy brief highlights the components necessary for a fair 
accountability system as defined by measurement experts.
            Policymakers' Guide to Growth Models for School 
                    Accountability: How Do Accountability Model Differ. 
                    Council of Chief State School Officers. October 
                    2005
    This policy guide clearly articulates the differences between 
status and growth models and explains the conditions necessary to 
evolve systems towards growth.
                                 ______
                                 
                                                        March 2007.

                            NCLB ISSUE BRIEF

Highly Qualified Teachers

                              CURRENT LAW

            NCLB, Title I, Part A, Section 1119--Qualifications for 
                    Teachers and Paraprofessionals
    <bullet> Local education agencies (LEAs), i.e. school districts, 
must hire only highly qualified teachers to teach core academic 
subjects in schools receiving Title I (Improving the Academic 
Achievement of the Disadvantaged) funds starting in the fall of 2002.
    <bullet> LEAs and state education agencies (SEAs) must have plans 
in place to ensure that:
    <bullet> 100 percent of teachers of core academic subjects are 
highly qualified by the end of 2005-2006, although the U.S. Department 
of Education (USED) extended the deadline to the end of 2006-2007, and
    <bullet> Teachers receive high quality professional development to 
enable them to be highly qualified and successful classroom teachers, 
with professional development defined in section 9101(34).
            NCLB Title I, Part A, Section 1111--State Plans
    <bullet> SEAs must ensure that, through transfers, providing 
professional development, recruitment programs, or other effective 
strategies, low-income students and minority students are not taught by 
unqualified, out-of-field, or inexperienced teachers at higher rates 
than other students.
    Core Subjects. Core academic subjects include English, reading or 
language arts, mathematics, science, history, civics and government, 
geography, economics, the arts and foreign language. Teachers of 
students with disabilities and students who are English language 
learners (ELLs) must be highly qualified if they teach core academic 
subjects.
    Definition of Highly Qualified Teacher. Section 9101(23) requires 
highly qualified teachers to: (1) have a bachelor's or higher degree; 
(2) be fully state certified, as defined by the state; and (3) 
demonstrate that they know the subject(s) they are teaching using one 
of the ways prescribed in section 9101(23). Teachers can demonstrate 
subject knowledge with college courses, state examinations or, in some 
cases, a ``high objective uniform state standard of evaluation'' 
(HOUSSE). Each state can create its own HOUSSE based on coherent and 
objective information about a teacher's teaching experience, college 
courses, professional development and evidence of subject knowledge. 
The HOUSSE is an option only for veteran teachers, new special 
education teachers and new teachers in rural LEAs.
    Accountability. Section 2141 of the NCLB establishes an 
accountability system for teacher qualifications that requires states 
to set predetermined targets, or Annual Measurable Objectives (AMOs) 
for LEAs and to intervene when an LEA fails to meet its AMOs and fails 
to meet Adequate Yearly Progress (AYP) for student achievement. States 
must impose sanctions on LEAs that do not meet AMOs and AYP, including 
collaborative planning and, at worst, restrictions on an LEA's use of 
federal funds.

                            RECOMMENDATIONS

    <bullet> Feasible Targets. Set feasible targets for all teachers of 
core academic subjects to be highly qualified. Clarify that an SEA or 
an LEA will not face financial penalties or restrictions on its use of 
federal funds if it has 95 percent of core classes taught by highly 
qualified teachers and all teachers who are not highly qualified are on 
track to become highly qualified within three years.
    <bullet> HOUSSE. Clarify that SEAs and LEAs may continue to use 
HOUSSE for determining whether veteran teachers, new special education 
and new rural teachers are highly qualified.
    <bullet> Equitable Distribution of Teachers. Retain flexibility for 
states to define inequities in the distribution of highly qualified 
teachers as it applies to their state's circumstances.
    <bullet> Teacher Effectiveness. Provide financial incentives for 
states to pilot different definitions of teacher effectiveness and to 
implement comprehensive approaches in high-need schools that include 
innovative teacher preparation and recruitment, better working 
conditions, professional time for planning and collaboration and 
instructional career ladders.
    <bullet> Innovation. Provide more funds for NCLB Title II, Part C 
programs for innovative teacher recruitment, such as Troops to Teachers 
and Transition to Teaching. Provide financial incentives to states to 
pilot definitions and accountability systems for effective school and 
district leaders.
    <bullet> Accountability. Preserve the flexibility that enables SEAs 
to work with LEAs that do not meet AMOs (Annual Measurable Objectives) 
and AYP (Adequate Yearly Progress) to develop credible plans for 
improvement in the context of each LEA's needs and circumstances. 
Provide SEAs with more funds for interventions with LEAs and to develop 
comprehensive, longitudinal (growth model) data systems that track 
individual student academic performance over time.
    <bullet> Professional Development. When scientifically-based or 
evidence-based research, as defined by the U.S. Department of 
Education's (USED) Institute for Education Sciences (IES), is not 
available for a specific professional development need, permit the 
highest level of available research to be used as the basis for the 
professional development. Provide additional funding to renew or 
develop online courses, with priorities for courses in high-need 
content areas (such as inclusive classrooms with general education and 
special education students and English language learners) and courses 
for paraprofessionals. Permit federal professional development funds to 
be used for Public Broadcasting System's TeacherLine and Ready to Teach 
products
    <bullet> Funding Levels and Allocation Formulas. Fully fund Title I 
and Title II. Change the Title II, Part A allocation formula to enable 
SEAs to target funds to LEAs that are the farthest from meeting teacher 
quality goals. Retain factors for population and poverty, eliminate the 
``hold harmless'' provision for funding, add a ``rural'' factor to 
target funds to sparsely populated areas that have difficulty 
recruiting and retaining teachers, and give SEAs flexibility to adjust 
the weights for each factor in the formula.
    <bullet> Evaluation. Revise the Higher Education Act Title II 
reporting requirements, which require states to report on teachers with 
``waivers'' (those who are not certified) by subject area, so they 
match the NCLB reporting requirements, which require states to report 
on the number of core classes not taught by highly qualified teachers.

                               RATIONALE

    NCLB will be more effective at attaining its important student 
achievement and teacher quality goals if it sets feasible goals and 
provides more resources and flexibility for reaching them while 
continuing to hold states and school districts accountable.

                                 FACTS

    Teacher Shortages. New York may not have enough qualified teachers 
in all subject areas and geographic regions to reach NCLB's teacher 
quality goal by the end of school year 2006-2007.
    <bullet> In 2005-2006, teachers who did not meet the definition of 
highly qualified taught 5.5 percent of classes in core academic 
subjects in New York, compared to 7.9 percent in the prior year. 
However, in 2005-2006, teachers who were not highly qualified taught 
8.1 percent of core classes in high poverty elementary schools and 17.4 
percent of core classes in high poverty middle and secondary schools. 
Teachers in high poverty schools were less likely than other teachers 
to be highly qualified because they were less likely to be 
appropriately certified for what they were teaching, and, in New York 
City, were less likely to have had prior teaching experience.
    <bullet> In 2005-2006, there were shortages of certified teachers 
in many subjects, with the most prevalent core subjects being the arts, 
languages other than English, and mathematics. There were also severe 
shortages of teachers for students with disabilities in middle and 
secondary grades. New York City and two of the other large cities 
(Syracuse and Rochester) had the largest gaps, but there were some 
shortages in nearly every region. In some subjects, New York did not 
certify enough new teachers to fill vacancies for them. In addition, 
not every certified teacher is available to teach wherever there is a 
vacancy.
    <bullet> In 2005-2006, 43 percent of teachers in New York were age 
45 or more, with 17 percent of them over age 54. Demand for new 
teachers will persist as these baby boomers age out of the workforce 
and as new policies expand early childhood education, reduce class size 
and provide tutoring and other support to help every student succeed.
    Importance of Innovation. P-16 partnerships are effective in 
addressing teacher shortages. For example, a federally funded 
partnership of the State Education Department, the New York City 
Department of Education and independent colleges and universities in 
the New York City area yielded hundreds of new teachers in shortage 
areas for New York City. It is not known yet whether this model can be 
extended to other regions without needing funds to do it.
    New Approaches to Accountability. New York has comprehensive 
policies that promote teacher quality from preparation through 
certification, first year mentoring, professional development and 
annual professional performance reviews. In addition, Governor Eliot 
Spitzer has called for new approaches, such as Contracts for 
Excellence, new tenure standards and a review of the effectiveness of 
teacher preparation programs. Resources are needed to test and refine 
new approaches.

                                RESEARCH

            Why teacher quality resources should be targeted to schools 
                    and districts where they are needed most
    Nationwide, low-income and minority students are more likely than 
other students to be in high-need schools with fewer qualified, in-
field and experienced teachers. (Peske and Haycock, 2006). Teachers 
continue to leave these schools at higher rates than teachers at any 
other type of school (Marvel 2006). In New York, three large cities 
with high percentages of low-income and minority students are more 
likely than other schools to have out-of-field teachers and, in the 
case of New York City, inexperienced teachers (New York State Education 
Department, forthcoming). NCLB must permit states to target teacher 
quality funds to the districts and schools where they are needed most.
    Why states need funds to develop comprehensive, longitudinal data 
systems
    The Data Quality Campaign is an organization supported and endorsed 
by dozens of educational and other national organizations. Its 2006 
survey found that only one state, Florida, had an educational data 
system that met its national standards. Standards and survey results 
are at http://www.dataqualitycampaign.org/survey--results/.
            Why funds are needed to promote innovative approaches to 
                    teacher preparation and recruitment
    NCLB's Transition-to-Teaching program has provided seed money in 
many states for dozens of projects that enable high-need districts 
recruit and retain highly qualified teachers through alternative 
teacher preparation and certification. Performance reports are at 
http://www.ed.gov/programs/transitionteach/performance.html. As 
alternative teacher preparation models gain the credibility and 
recognition they deserve, interest in them is increasing. For example, 
Governor Spitzer seeks to increase opportunities in them in New York. 
Seed money enables programs to start with enough strength so they can 
continue when external funding ends.

                               REFERENCES

Marvel, J., Lyter, D.M., Peltola, P., Strizeh, G. A., and Morton, B.A. 
        (2006). Teacher Attrition and Mobility: Results from the 2004-
        2005 Teacher Follow-Up Survey (NCES 2007-307). U.S. Department 
        of Education, National Center for Education Statistics. 
        Washington, DC: U.S. Government Printing Office. Table 2, page 
        9. http://nces.ed.gov/pubsearch/pubsinfo.asp?pubid=2007307
New York State Education Department. Second Annual Report: Teacher 
        Supply and Demand in 2005-2006. University of the State of New 
        York: Albany, NY. Available upon request to 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0648454a44485f55466b676f6a28687f75636228616970">[email&#160;protected]</a>
Peske, Heather and Haycock, Kati (2006). Teaching Inequality: How Poor 
        and Minority Students Are Shortchanged on Teacher Quality. The 
        Education Trust. http://www2.edtrust.org/EdTrust/
        Product+Catalog/subject+search (select Teacher Quality)
                                 ______
                                 
                                                        March 2007.

                            NCLB ISSUE BRIEF

Single Accountability Designation for Adequate Yearly Progress

                              CURRENT LAW

    NCLB makes states responsible for continuous student academic 
improvement, known as ``adequate yearly progress'' (AYP). State 
education departments must (1) design and secure U.S. Department of 
Education approval for school and school district accountability plans 
based on academic standards that states develop; (2) ensure that 
schools, in turn, are held responsible for their students' academic 
performance; and (3) publicly report test results and test data 
analyses.
    Schools are required to designate student subgroups and measure and 
report their academic progress. New York has designated these subgroups 
of students: all students; students with disabilities; economically 
disadvantaged; limited English proficient; white; American Indian/
Alaskan; Asian; black; and Hispanic. A student may be classified as and 
their academic performance reported as part of more than one subgroup. 
Schools that fail to make AYP for poor academic performance for any one 
or more subgroups in any one subject (English language arts, 
mathematics, and a third, state designated subject) are treated under 
NCLB as if the entire school failed AYP achievement benchmarks.
    States are required to conduct and report publicly on several 
different measurements of accountability under NCLB and other federal 
programs. Currently, state education agencies (SEAs) are required to 
measure and designate:
    <bullet> Schools and districts In Need of Improvement for failing 
to make Adequate Yearly Progress (AYP) under Title I. (Adequate Yearly 
Progress is continuous improvement toward all students being 
academically proficient, i.e. performing at grade-level, by 2014. Title 
I mandates improving the academic achievement of disadvantaged 
students.)
    <bullet> Schools and districts that do not meet requirements for 
highly qualified teachers (HQT) under Title I and Title II(a). (NCLB 
requires 100% of teachers of core academic subjects--English, 
mathematics, science, history, civics, geography, economics, the arts, 
and foreign language--to be highly qualified by the end of 2006-2007. 
To be highly qualified a teacher must have at least a bachelor's 
degree, full state certification, and demonstrate knowledge of the 
subject they teach.)
    <bullet> Districts that do not meet the state's Annual Measurable 
Achievement Objective (AMAO) under Title III. (Title III mandates 
language instruction for limited English proficient (LEP) and immigrant 
students (English language learners, or ELL). AMAO is the level of 
performance that LEP and ELL students must demonstrate for a district 
to be deemed to have achieved AYP.
    <bullet> Districts in Need of Assistance or Intervention under IDEA 
(Individuals with Disabilities Education Act, which governs special 
education). These determinations are made based on graduation rates, 
drop out rates and scores on 4th and 8th grade mathematics and English 
Language Arts (ELA) assessments.
    Often, schools and districts end up on more than one list and are 
sanctioned for poor performance in different ways, depending on which 
list they are on. Under NCLB the sanctions apply to the entire school 
or district, even though only one student subgroup may be 
underperforming academically in only one subject.

                            RECOMMENDATIONS

    <bullet> Use only Title I criteria to determine when a school or 
district is in need of improvement, not the other subgroup measurements 
under Title III (LEP and ELL students) or IDEA (students with 
disabilities).
          If a school district achieves Adequate Yearly Progress using 
        Title I criteria for all its subgroups in all subjects--
        mathematics, English language arts and a third, state selected 
        academic indicator (e.g. science or student attendance rate)--
        and meets the high school graduation rate, the district should 
        not be sanctioned for its performance on any other measure 
        under any other NCLB title or IDEA.
          Accountability measures under NCLB Title III and IDEA should 
        be used only to determine how to meet the additional needs of 
        ELL and LEP students and special education students
          Permit schools to report test scores to the public as letter 
        grades that represent bands or ranges of scores rather than as 
        precise numerical scores (e.g. scores ranging from 90.0-100.0 
        would equal an ``A''). Numerical scores would continue to be 
        reported to the SEAs and the U.S. Department of Education.

                               RATIONALE

    <bullet> Using a single set of measures to determine students' 
academic performance would promote comprehensive planning, allow for 
more targeted remediation (intervention), and encourage more 
coordinated use of school and district resources. Using one 
accountability measure of academic proficiency for students in English 
language arts and mathematics would make the system easier for the 
public to understand and avoid the ``list fatigue'' that occurs when 
multiple designations are released over the course of the school year.
    <bullet> Labeling an entire school in need of improvement and thus 
triggering school-wide interventions when only one subgroup may be in 
need of additional assistance is a waste of staff and fiscal resources 
at the state, district and school levels.
    <bullet> Parents with school age children make decisions about 
where to live based on the academic performance of students in 
particular school districts. This, in turn, affects property values and 
the desirability of certain communities. Reporting scores to the public 
as letter grades would create a more equitable opportunity for 
communities to be selected as desirable places to live.

                                 FACTS

    It is not clear that multiple measurements add additional value. 
School districts do not have the resources to devote to unnecessary 
remediation. In New York there is a large overlap in schools and 
districts placed on the various lists:
    <bullet> Of the school districts that failed to make AYP under NCLB 
Title I, 40% also failed to meet requirements for highly qualified 
teachers, 60% also failed to meet the adequate measurable achievement 
objective for LEP students and 54% also failed to meet IDEA goals.
    <bullet> Of the 828 schools that failed to make AYP in the 2005-
2006 school year, 51% were designated in need of improvement due to the 
performance of only one subgroup, students with disabilities.

                                RESEARCH

    There is no conclusive research on this issue. However, the results 
of compliance with current law appear to support our recommendations. 
This is a sample of current research:
            Educational Measurement: Issues and Practice. Winter 2005
    Educational Measurement is the journal of the National Council on 
Measurement in Education. This special issue is devoted to empirical 
research on current accountability systems, i.e. their structure, their 
relationship to policy, and their impact on school reform movements.
            Standards for Educational Accountability Systems. National 
                    Center for Research on Evaluation, Standards, and 
                    Student Testing. Robert Linn, et. al. Policy Brief 
                    5. Winter 2002.
    This policy brief highlights the components necessary for a fair 
accountability system as defined by measurement experts.
                                 ______
                                 
                                                        March 2007.

                            NCLB ISSUE BRIEF

Targeted Interventions and Differentiated Consequences for Schools and 
        Districts Identified as in Need of Improvement

                              CURRENT LAW

    Under NCLB, states must use a school's failure to make Adequate 
Yearly Progress (students' continuous academic improvement) for two 
consecutive years as a determinant that the school is not on track to 
achieve universal proficiency by the 2014 school year, and thus should 
be labeled ``in need of improvement''. Schools may be designated in 
need of improvement if one or more subgroups of students (e.g. 
Hispanic, students with disabilities, limited English proficient) do 
not meet targets for improved academic performance or if less than 95 
percent of students in a subgroup take an assessment (this is called 
the participation rate). The participation rate requirement keeps 
schools from selectively eliminating students (e.g. students with 
disabilities or limited English proficient) from taking an assessment.
    States publicly identify schools in need of improvement. The 
schools are required to develop and submit a plan outlining a series of 
reforms designed to lead to improved academic performance. As the years 
pass, provisions of NCLB are triggered that initiate a series of 
mandated school choice options and school district interventions. 
During the first year of identification as in need of improvement 
(after a school's second consecutive year of missing an AYP target), 
NCLB requires the district to offer students the option of transferring 
to another public school not identified as in need of improvement (this 
is called school choice). After the second year of a school's being 
labeled in need of improvement (three consecutive years of failing to 
meet AYP), low income students must be offered free supplemental 
educational services (SES), such as tutoring, in addition to school 
choice.
    NCLB assumes all students in a school designated as in need of 
improvement need remedial help even though only one subgroup of 
students may have fallen short of the AYP target. School districts are 
required to set aside up to 20 percent of their Title I program funding 
to implement school choice and SES for low-income students. They do not 
have to offer SES or school choice beyond what can be supported by that 
20 percent and funds that are set-aside, but not used, can be returned 
to the general education program.

                            RECOMMENDATIONS

    <bullet> States should not be required to impose NCLB mandated 
sanctions (school choice and supplemental educational services) on 
schools or districts because of the failure of one or several subgroups 
of students to meet Adequate Yearly Progress targets.
    <bullet> Schools should be able to target remediation, or 
interventions, based on the nature and extent of their failure to make 
Adequate Yearly Progress.
    <bullet> Schools and districts should have the flexibility to 
decide when and in which order to offer school choice and supplemental 
educational services. Schools should be allowed to work with parents to 
determine which option best meets family and student needs and when to 
implement it.
    <bullet> Additional, targeted funding should be provided to school 
districts for implementation of school choice and SES.

                               RATIONALE

    <bullet> Not all schools that fail to make AYP have systemic 
problems requiring school-wide interventions. Interventions such as 
school choice and supplemental educational services should be given 
first to the students who are underperforming academically. For 
example, if students with disabilities fail to meet AYP targets, 
resources and remediation should be focused on those students.
    <bullet> Some school districts, particularly those in inner cities, 
which must offer school choice have only a few schools or no schools 
that are not also in need of improvement to which to send students. For 
example, most of New York's smaller districts may have only one high 
school; if it is identified as in need of improvement there is no other 
place to send the students. Or a small city may have two middle 
schools; if one is identified, often the other is too. In New York 
City, there are too many students eligible for school choice and too 
few schools that are making Adequate Yearly Progress to accommodate 
them. It would be more efficient and effective to allow school 
districts to determine whether and how to implement school choice and 
SES, depending on their circumstances.
    <bullet> There is a distinction between a school district's failing 
to make AYP for an inadequate participation rate and failing for 
students' academic performance. If a district is cited for an 
inadequate participation rate, there is no way to determine from this 
how students are performing academically. Yet, NCLB requires that 
states impose school-wide interventions for failure to meet the 95 
percent participation rate mandate.

                                 FACTS

    <bullet> In New York, preliminary data show that for the 2005-06 
school year, 37 percent of the schools identified as in need of 
improvement were so designated because of the underperformance of one 
subgroup: students with disabilities, and 51 percent were designated 
because a single subgroup, mostly, students with disabilities, 
underperformed on the grades 3-8 English Language Arts exams.

                                RESEARCH

    THere is no conclusive research available on this issue.
    <bullet> In November 2003 the U.S. Department of Education awarded 
over $600,000 to the Center for School Change at the University of 
Minnesota's Hubert Humphrey Institute and the National Governors 
Association Center for Best Practices for a three-year project to help 
states develop the most effective and efficient ways to create and 
administer school choice systems that will produce improved student 
achievement.
    <bullet> In 2005 the U.S. Department of Education instituted a 
pilot program that allowed the Boston public schools and the Chicago 
public schools to become supplemental educational services providers. 
(NCLB does not allow schools in need of improvement to use its staff to 
provide SES.)
    <bullet> Also in 2005, USED allowed four school districts in 
Virginia to reverse the required order of offering school choice first, 
then SES by offering SES first.
    <bullet> USED invited all states to apply for the school choice/SES 
pilot program on behalf of their school districts for the 2006-07 
school year.
    <bullet> USED has not yet published the results of these pilots.
                                 ______
                                 
    Chairman Kildee. Thank you very much.
    Ms. Quenemoen?

STATEMENT OF RACHEL QUENEMOEN, SENIOR RESEARCH FELLOW, NATIONAL 
     CENTER ON EDUCATION OUTCOMES, UNIVERSITY OF MINNESOTA

    Ms. Quenemoen. Thank you, Chairman Kildee and Ranking 
Member Castle and all the members of the subcommittee, for 
inviting me here to testify today.
    I work on several federally funded projects housed at the 
University of Minnesota. However, in my testimony this morning 
I am representing myself and not the multiple projects on which 
I work.
    Although you wouldn't know it from the newspaper lately, 
the news is good on the increasing achievement of students with 
disabilities. Data from schools, states, and the National 
Assessment of Educational Progress show improved test scores, a 
closing of the gap. Not all schools are being successful. So 
researchers and policy-makers are studying what makes a 
difference in successful schools.
    What they are finding is that successful schools ensure 
that all students are taught the challenging standards-based 
curriculum at grade level through effective instructional 
strategies, and all students are expected to learn it. That 
seems straightforward, but clearly, not all schools have 
figured that out.
    To understand the importance of high expectations, it is 
important to have a clear idea of who students with 
disabilities are. Most students with disabilities, 75 percent, 
have learning disabilities, speech language impairments or 
emotional behavioral disabilities. Add another 4 to 5 percent 
with physical, visual, hearing, and other health impairments, 
and you have 80 percent of students with disabilities who do 
not have intellectual impairments who with high quality 
curriculum and instruction can achieve proficiency on the grade 
level content by going around the effects of their 
disabilities.
    In addition, research suggests that many of the small 
percent of students with disabilities who do have intellectual 
impairments, less than 2 percent of the total population of all 
students, or 20 percent of students with disabilities, can also 
achieve proficiency when they receive high quality instruction 
in the grade level content. In schools where all these children 
are expected to learn and given the services, supports and 
specialized instruction to do so, we are seeing data that shows 
students with disabilities can learn to very high levels.
    Why don't all educators accept these high expectations? 
Some of it results from a misunderstanding of what standards-
based testing is meant to measure. The tests that most of us 
experienced growing up were built on the measurement models of 
the 20th century, norm referenced tests, designed to sort us 
into bell-shaped curves in some kind of ability distribution. 
Garrison Keillor makes use of these misconceptions in his sign-
off from Lake Wobegon, not far from my home, ``where all the 
children are above average.''
    If students of idyllic Lake Wobegon are taking the norm 
referenced tests where half the students are above and half 
below average, that is very probably true for very complex 
reasons. However, if instead they are taking a high quality 
criterion reference test based on challenging content and 
achievement standards, then there is not an average to 
describe, only relative distance from the standard. If there is 
a widely accepted but erroneous assumption that there will 
always be students who do poorly on tests, then it is pretty 
tempting to predict which students will end up on the bottom.
    In contrast, on a good standards-based test, all students 
who are taught well should perform well. My written testimony 
describes what is being done to use the best research in 
teaching learning and assessment to help states design 
assessment systems that can promote student learning. It also 
describes the regular assessments, accommodations, and varied 
alternate assessment options available to ensure all students 
are tested well. And I welcome your questions about these 
options.
    The results of these assessments are used, of course, in 
accountability systems. There has been much attention in the 
press about how states have designed these systems. The 
technical difficulties of accountability systems are real, and 
states have an obligation to avoid both false positives and 
false negatives in identifying schools.
    In other words, although gaming of the system does exist, 
thoughtful, committed people are struggling with ensuring 
fairness all the way around. And sometimes it is hard to 
discern good intentions from bad.
    Growth models are seen as a logical solution by many. 
Pilots of the model are underway, which is good. And serious 
attention has been given to ensuring that all student groups 
are included, which is better. The states working on this thus 
far are in pilot phases and are required to carefully analyze 
the effects of these models. They are also required to build 
these models based on an absolute standard of proficiency for 
all students, which is extremely important.
    However, many special educators and the general public have 
seen the term growth as more generic, that any progress is 
acceptable and would relieve the pressure of proficiency as an 
absolute standard. There have been proposals that student IEPs 
could replace the regular accountability system, effectively 
excluding students from the benefits of standards-based reform. 
Others suggest that special education students should be held 
to separate standards that focus growth only on basic skills or 
suggest exemption from accountability completely.
    This would be disastrous and cause us to lose the 
tremendous progress we have made the past 6 years. It is 
important to step back to celebrate where we have come from and 
to clarify where we cannot go. Because of NCLB we now have a 
powerful level for reducing and eliminating the achievement gap 
of students with disabilities.
    Any adjustments to accountability systems should be made 
for all students, not just one sub-group, with consideration 
and careful monitoring of intended consequences and unintended 
consequences for students overall and for sub-groups.
    Thank you very much.
    [The statement of Ms. Quenemoen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Kildee. Thank you.
    Dr. Hardman?

STATEMENT OF MICHAEL L. HARDMAN, PH.D., DEAN-DESIGNATE, COLLEGE 
                OF EDUCATION, UNIVERSITY OF UTAH

    Mr. Hardman. Chairman Kildee, Ranking Member Castle, 
members of the subcommittee, good morning. And thank you for 
the opportunity to testify on the reauthorization of the No 
Child Left Behind Act and its impact on teacher education in 
this country.
    As mentioned, I am Michael Hardman, the incoming dean of 
education at the University of Utah. And I am here in my role 
and capacity as a faculty member and an administrator at this 
university.
    In its report on the status of teachers in the United 
States, the National Commission on Teaching and America's 
Future stated that what teachers know and can do really makes 
the crucial difference in what children learn. Good teaching 
has never been more important than it is today.
    The obvious corollary to this statement is that good 
teacher preparation has never been more important. However, 
while we are much more knowledgeable about what constitutes 
good teacher preparation, many programs continue to prepare new 
teachers in a way that is completely inconsistent with today's 
schools.
    These needs include the skills to teach a more diverse 
student population, an emphasis on standards and access to the 
general curriculum, and the call for both general and special 
education teachers to work together and be accountable to the 
improved performance of all students.
    In many parts of this nation, general and special education 
teachers are still being prepared in total isolation of one 
another. These isolated teacher education programs continue 
although more than 96 percent of students with disabilities 
spend at least a portion of their school day side by side with 
peers who are not disabled. Four of 10 students with 
disabilities spend more than 80 percent of their day in an 
inclusive class. And nine of 10 general education teachers have 
an average of nearly four students with disabilities in their 
classrooms.
    The reality is that neither general nor special education 
alone has the capacity to respond to the complex educational 
needs of America's children. Collaboration then becomes the key 
to raising expectations and increasing the performance of all 
students as mandated in NCLB and IDEA.
    At the University of Utah, we are undertaking a first-time 
major university-wide redesign of all teacher education 
programs from early childhood to secondary education. The 
entire new program is based on the concept of universal design 
for learning and requires a common core of knowledge and skills 
for every teacher candidate, whether they be general or special 
education.
    Universal design for learning focuses on preparing teachers 
with the tools to make data based decisions that will meet the 
individualized needs of every student in the classroom. It 
provides our teacher candidates the skills to create 
instructional programs that work for all students. And it makes 
curriculum and instruction accessible to every student 
regardless of their abilities or their learning styles. Student 
monitoring is then used to guide instruction and to increase 
parent involvement.
    Second, all teacher candidates at the University of Utah 
are taught together in courses and field experiences that are 
located in inclusive and diverse classrooms. A professional 
education core at the University of Utah develops a common 
understanding among general and special education teachers of 
the goals and purposes of schooling, the skills to meet the 
educational needs of every student, and how to work together in 
a school-wide support system, not in isolation.
    Our core includes instruction in areas such as safe 
schools, character education, professional ethics, effective 
instruction for students with disabilities and English language 
learners, meeting the needs of students with challenging 
behaviors, teaching reading, writing, and math, and effective 
use of technology in instruction.
    Implicit in the call by federal policy-makers to reform 
education and improve student achievement is the critical need 
for us to reexamine the preparation of our nation's teachers. 
In doing so, to guide this effort, I have posed the following 
recommendations for the reauthorization of NCLB and the 
preparation of both general and special education teachers.
    First, federal policy under No Child Left Behind should 
ensure that every teacher who is deemed highly qualified has 
demonstrated the research-based teaching skills that are 
necessary to instruct students with disabilities and English 
language learners in inclusive settings.
    Teacher preparation must be based on an analysis of the 
skills that are needed for new teachers to improve student 
performance. These programs must be driven by content standards 
that define the specific skills that are expected of new 
teachers as well as performance standards describing how these 
new teachers will demonstrate mastery.
    Teacher education programs should require a common core of 
skills for every new teacher so they can demonstrate how to 
continuously assess student performance, adjust the learning 
environment as needed, modify instructional methods, use 
effective behavioral supports, and implement appropriate 
accommodations to meet the individual needs of their students. 
There is a critical need for Title II of No Child Left Behind 
to provide funding that will support universities in 
partnerships with schools to teach this set of core skills to 
both general and special education teachers.
    Teacher education must also include a balance of course 
work and field experiences consistent with teacher roles. I 
also recommend that teachers not be considered highly qualified 
until they have successfully completed their initial 
preparation program. Current federal regulations allow states 
to immediately deem teachers as highly qualified when they have 
enrolled in an alternative preparation program for 3 years but 
they have not completed all state requirements.
    Only teachers who have successfully completed these 
requirements and are fully certified by the state should be 
considered highly qualified. Teacher education programs, both 
university and alternative programs, must be held accountable 
for their graduates.
    And finally, NCLB must provide the resources needed to 
address the critical shortage of highly qualified teachers and 
the university faculty who prepare them. Title II funds must be 
targeted to addressing the critical shortage areas, including 
special education. The shortage of special education teachers 
has been pervasive and persistent for more than two decades. 
Approximately half of special education teachers are leaving 
this field within the first 3 to 5 years of their preparation.
    Chairman Kildee. Dr. Hardman, there is a vote taking place 
now in the House. So if you could wrap up, we will----
    Mr. Hardman. This concludes my testimony. And I thank you 
very much for the opportunity.
    [The statement of Mr. Hardman follows:]

 Prepared Statement of Dr. Michael L. Hardman, Dean-Designate, College 
                    of Education, University of Utah

Collaboration within a School-Wide System of Support
    Chairman Kildee and Members of the Subcommittee, good morning and 
thank you for the opportunity to testify on the No Child Left Behind 
Act and its impact on teacher education in this country. I am Michael 
Hardman, incoming Dean of the College of Education and currently Chair 
of the Department of Teaching and Learning and the Department of 
Special Education at the University of Utah. I am also a member of the 
Board of Directors for the Council for Exceptional Children (CEC) and a 
past-president of the Higher Education Consortium for Special Education 
(HECSE). Since the enactment of the No Child Left Behind Act and the 
Individuals with Disabilities Education Improvement Act, CEC and HECSE 
have worked closely together to ensure that the promise of every 
student succeeding in our nation's schools becomes a reality. Although 
my testimony includes excerpts from the CEC Teacher Education Division 
and HECSE recommendations on the reauthorization of the No Child Left 
Behind Act, my role today is in the capacity of a faculty member and 
administrator representing the College of Education at the University 
of Utah.
Background
    In its report on the status of teachers in the United States, the 
National Commission on Teaching and America's Future stated that: 
``What teachers know and can do makes the crucial difference in what 
children learn * * * New courses, tests and curriculum reforms can be 
important starting points, but they are meaningless if teachers cannot 
use them well * * * Student learning in this country will improve only 
when we focus our efforts on improving teaching. Good teaching has 
never been more important than it is today.''
    The obvious corollary to this statement is that good teacher 
preparation has never been more important as well. However, while we 
are more knowledgeable about what constitutes good teacher education, 
many programs continue to prepare new teachers in a paradigm that is 
inconsistent with the needs of today's schools. These needs include 
knowledge and skills to teach a more diverse student population; an 
increasing emphasis on standards and access to the general curriculum; 
and the call for both special and general educators to work together 
and be accountable for improved performance of all students. In many 
parts of this country, general and special education teachers are still 
being prepared in total isolation of one another. Consequently, many 
new teachers lack the necessary skills to work together. These isolated 
teacher preparation programs continue although more than 96% of all 
students with disabilities spend at least a portion of their school day 
side-by-side with their peers who are not disabled in an inclusive 
classroom setting. Four of ten students with disabilities spend more 
than 80% of their day in a general education class (U.S. Department of 
Education). According to the Study of Personnel Needs in Special 
Education (SPeNSE), nine of ten general education teachers currently 
have an average of 3.5 students with disabilities in their classroom. 
The reality is that neither general nor special education alone has the 
capacity to respond to the complex educational needs of America's 
children. As suggested by Marlene Pugach from the University of 
Wisconsin-Milwaukee, ``the need to prepare all teachers to create 
classrooms that embrace students with disabilities and teach them is no 
longer contested.'' Collaboration is the key to raising expectations 
and increasing the performance of all students as mandated in NCLB and 
IDEA.
One University's Vision for the Redesign of Teacher Education
    The University of Utah is presently undertaking a university-wide 
redesign of teacher education at every level from early childhood to 
secondary education. Several factors have led the faculty to rethink 
the University's traditional approach to teacher education, including 
the increasing number of students in public education with unique 
educational needs who come from diverse cultural, linguistic, and 
socioeconomic backgrounds and are now learning together in inclusive 
classrooms. The critical shortages continue in the supply of teachers 
and the university faculty needed to prepare them, particularly in the 
areas of special education, math, and science. These shortages are 
fueled by inadequate salaries and high attrition rates in the first 
five years of employment. Finally, universities and colleges must find 
new and innovative ways to meet the challenge of preparing highly 
qualified teachers under the mandates of NCLB and IDEA 2004.
    The design of our new teacher education programs reflects the 
vision of the University of Utah to attract and retain a diverse 
faculty of the highest quality who have the desire and responsibility 
to provide both general and special education teachers with the 
mentoring, coursework, and field experiences that are rigorous and 
relevant for successful careers in today's schools. Our program design 
is based on three critical elements:
    <bullet> Universal design for learning within the framework of a 
three-tier model for evidence-based instruction that provides teachers 
with the tools for data-based decisions.
    <bullet> An extensive professional education core of knowledge and 
skills that is required for every general and special education teacher 
candidate attending the university.
    <bullet> University courses directly linked to continuous field 
experiences in inclusive classrooms and schools.
    Universal Design for Learning (UDL). Teacher candidates at the 
University of Utah develop the skills to create instructional programs 
and environments that work for all students, to the greatest extent 
possible, without the need for adaptation or specialized design. UDL, 
adapted from architecture where buildings are created from the 
beginning with diverse users in mind, is intended to make curriculum 
and instruction accessible and to every student, regardless of their 
abilities or learning styles. A range of options are available to each 
student that supports access to, and engagement with learning 
materials. (Rose & Meyer).
    In the teacher education program at the University of Utah, UDL is 
incorporated into a three-tier model of instruction and teacher 
candidates are provided with the progress monitoring tools that are 
needed for data-based decisions in terms of selecting, using, and 
adapting instruction. Data are used to guide instruction, appropriate 
intervention and practice, parent involvement, and other research-based 
practices. (Utah State Office of Education; Vaughn, Bos, & Schumm). 
Tier I focuses on core classroom instruction that is provided to all 
students using evidence-based practices to teach the critical elements 
within a core curriculum. The general education teacher and special 
education teacher in conjunction with a school-wide support team (such 
as speech language professional, paraeducators, and school 
psychologists) provide instruction to students who are at various 
levels of development in critical skills. Most students will 
demonstrate proficiency with effective Tier I instruction. These 
students are able to acquire skills through the core (standard) 
instruction provided by the teacher, whereas others require more 
intensive instruction in specific skill areas. Using universal design 
for learning, differentiated instruction, multi-level learning and 
targeting specific skills classroom teachers in conjunction with the 
school-wide support team are able to meet the needs of most students.
    Tier II provides supplemental targeted instruction in addition to 
evidence-based practices taught at the Tier I level. For some students, 
core classroom instruction in the general classroom is not enough for 
them to demonstrate proficiency. These students require targeted 
supplemental instruction in addition to the skills taught through core 
instruction. Tier II meets the needs of these students by giving them 
additional time for intensive small-group instruction daily. The goal 
is to support and reinforce skills being taught by the general and 
special education teachers as well as the school-wide support team at 
the Tier I level. At this level of intervention, data-based monitoring 
is used to ensure adequate progress is being made on target skills. The 
frequency, intensity, and duration of this instruction vary for each 
student depending on the assessment and progress monitoring data.
    A small number of students who receive targeted supplemental 
instruction (Tier II) continue to have difficulty becoming proficient 
in necessary content skills. Tier III provides intensive targeted 
instruction to the most at-risk learners who have not adequately 
responded to evidence-based practices. These students require 
instruction that is more explicit, more intensive, and specifically 
designed to meet their individual needs. Additional sessions of 
specialized one-to-one or small-group instruction are provided with 
progress monitoring of specific skills.
    The key components of the three-tier model are (1) the use of 
evidence-based instruction designed to meet the needs of students at 
each level, and (2) assessment and progress monitoring procedures that 
measure current skills and growth over time and that are used to 
provide new instruction to individual students. The three-tier model 
provides a system that is responsive to students' changing needs.
    A professional education core required for general and special 
education teacher candidates. Traditional teacher education programs 
reinforce student differences by separating teacher candidates into 
isolated preparation programs, each with their own unique perspective 
and curricula. Such a structure makes little sense in today's schools 
where there is a need for a collaborative approach to teaching and 
every educator must have a core skill set of knowledge and skills to 
improve the performance of every student. The professional education 
core at the University of Utah is intended to develop a common 
understanding of the goals and purposes of schooling, knowledge and 
skills to meet the educational needs of all students, collaboration 
across educators in a school-wide support system, and the use of 
evidence-based instruction leading to advanced skills. Interstate New 
Teacher Assessment and Support Consortium (INTASC) calls for a cross-
disciplinary core in which every teacher candidate develops 
understanding of content and content-specific pedagogy. Using the 
INTASC framework and its principles for student-centered learning, the 
program at the University of Utah prepares every new teacher with 
knowledge and skills the following content areas:
    <bullet> Child, Adolescent, and Human Development
    <bullet> Safe Schools, Character Education, and Professional Ethics
    <bullet> Ethnic Studies, Multicultural/Multilingual Education, and 
Effective Instructional Approaches for English Language Learners
    <bullet> Foundations of Exceptionality and Effective Instruction 
for Students with Disabilities in Inclusive Classrooms
    <bullet> Research and Inquiry in Education
    <bullet> Principles of Assessment and Data-Based Decision-Making
    <bullet> Positive Behavior Support
    <bullet> Communication and Language Development
    <bullet> Reading and Writing Foundations and Methods
    <bullet> Math Foundations and Methods
    <bullet> Integrated Curriculum Methods (Across Fine Arts, Health, 
and Physical Education)
    <bullet> Effectively Using Technology in Diverse Classrooms
    <bullet> Education Law and Policy for Classroom Teachers (NCLB and 
IDEA)
    <bullet> International Education
    Linking university coursework to continuous field experiences. 
Teacher candidates must continuously demonstrate the knowledge and 
skills learned in coursework in actual classroom and school settings. 
Field experiences are viewed as an extension of university courses in 
which students translate research and theory into practice. Faculty and 
school district/agency cooperating teachers regularly observe, 
evaluate, and provide feedback to teacher candidates regarding their 
classroom performance. Each candidate's performance is evaluated in 
regard to (a) measurable gains in applying knowledge and skills from 
coursework, and (b) whether students with whom the candidate is working 
learn the content.
Recommendations
    Implicit in the call by federal policymakers to reform education 
and improve student achievement is the critical need for effective and 
qualified general and special education teachers, as well as a re-
examination of their preparation. To guide this effort in the future, 
recommendations are proposed for the preparation of general and special 
education teachers.
    Recommendation 1. Federal policy should ensure that any teacher who 
is deemed highly qualified has demonstrated evidence-based pedagogical 
skills necessary to teach students with disabilities and English 
language learners in inclusive classrooms.
    Effective teacher preparation is based on a careful analysis of the 
competencies needed for new teachers to improve student performance. 
The curriculum should include approaches, methods, and techniques that 
have been validated through research; are effective across students 
with diverse needs; and can be implemented successfully in a general 
education classroom and school setting. Teacher preparation programs 
must set content standards that describe the specific skill set 
expected of new teachers as well as performance standards describing 
how they will demonstrate mastery. Course work and field experiences 
are then structured to these content and performance standards. 
Fortunately, there is a robust research base on effective strategies to 
support student learning. Effective preparation programs must anchor 
their curriculum to these evidence-based practices and teacher 
candidates must be able to demonstrate that they can implement them 
successfully.
    Recommendation 2. Teacher education programs should require a 
professional education core for all their teacher candidates in order 
to ensure these individuals have demonstrated knowledge and skills to 
continuously assess student performance, adjust the learning 
environment as needed, modify instructional methods, adapt curricula, 
use positive behavior supports and interventions, and select and 
implement appropriate accommodations to meet the individual needs of 
students. Title II of No Child Left Behind can provide support to 
universities in partnership with public schools to develop this core.
    Through coursework and field experiences, teacher candidates 
acquire a common core of knowledge and skills designed to ensure 
educational programs and services are accessible and applicable to 
every student, regardless of ability, cultural background, or learning 
style. The core is grounded in the three-tier model of instruction, 
universal design for learning and evidence-based practice as a 
foundation for further preparation in a teaching specialization.
    Recommendation 3. Teacher education must include a balance of 
coursework and field experiences that are consistent with teacher roles 
in inclusive general education schools and classrooms.
    Effective teacher education programs use field experiences as a 
tool to push teacher candidates to translate theory into practice and 
advance their learning to a higher level. In order to accomplish this 
task, teacher preparation programs must work with local schools to 
identify evidence-based instructional techniques. Schools must also be 
willing to collaborate with teacher preparation programs to create 
opportunities for candidates to receive the practice necessary to 
cumulatively develop essential instructional and classroom management 
skills across time. This is critical for new teachers who have to apply 
increasingly complex formats in order effectively teach students who 
require frequent and intense instruction.
    Recommendation 4 Teachers should not be considered highly qualified 
until they have successfully completed their initial preparation 
program. Following initial preparation, every teacher must have the 
opportunity to continuously participate in professional development and 
improvement.
    Current federal regulations allow states to immediately deem 
teachers as ``highly qualified'' when they have enrolled in an 
alternative preparation program for up to three years but have not 
completed all program requirements. Only teachers who have successfully 
completed approved preparation programs and are fully certificated by 
state agencies should be considered ``highly-qualified'' special 
education teachers.
    Additionally, our understanding of effective instruction has 
expanded dramatically in the last three decades. In order for new 
teachers to be successful, they must be able to keep pace with 
research-based developments in curriculum design, instruction, behavior 
support, and program management. They need to be taught how to be 
critical consumers of research and use it to inform their practice. Put 
simply, new teachers and the schools they teach in must have a 
commitment to career professional development. Teacher education 
programs and schools must nurture and reinforce this commitment as a 
critical component of their overall mission.
    Partnerships are fostered among teacher preparation programs and 
schools to support the professional development of newly prepared and 
career teachers of students with disabilities. Effective teacher 
preparation programs develop close partnerships with schools that are 
structured to improve the quality and effectiveness of their graduates. 
At the heart of these partnerships is the development of shared views 
about the design of educational services for students with disabilities 
and the importance of career teacher professional development. Teacher 
preparation programs and schools must work together to establish 
initiatives that focus on real challenges facing today's schools, 
including innovative and efficient ways to prepare, mentor, and retain 
qualified teachers. Concurrently, schools must take advantage of 
teacher preparation program faculty expertise to promote research-based 
practices in the education of all students.
    Recommendation 5. Teacher education, including university and 
alternative preparation programs, must be held accountable for the 
performance of their graduates.
    Effective teacher preparation programs routinely evaluate the 
quality and impact of their graduates beyond measuring whether they 
demonstrate mastery of professional competencies at the time of program 
exit. Teacher preparation programs must be involved with the schools in 
a joint preparation, mentoring and evaluation process that begins at 
the time teacher candidates begin their initial preparation, continue 
during an induction period of no less than three years, and is 
maintained throughout their career. It is important to measure how 
effectively programs graduates successfully fill entry level roles and 
responsibilities through valid and reliable performance assessments. 
Preparation programs must also be accountable for how effectively they 
work with schools to mentor and support new teachers, as well as their 
efforts to systematically follow-up and evaluate their graduates' 
performance over time.
    Recommendation 6. NCLB Title II funds need to address the critical 
shortage areas of highly qualified teachers and the university faculty 
who prepare them.
    Title II funds should be directly targeted to address critical 
shortage areas, including special education. The shortage has been 
persistent and pervasive for decades and the attrition of new special 
education teachers is of great concern. Approximately half of all new 
special education teachers leave the field within three years. Title II 
funds should support higher education partnerships with local school 
districts designed to address chronic shortages and support the 
preparation, induction, mentoring, and retention of highly qualified 
special education teachers. Additionally, while the national focus is 
on the critical shortages in special education teachers and related 
services personnel (and rightfully so), little attention has been paid 
to the shortage of special education faculty in higher education 
(Smith, Pion, Tyler, Sindelar, & Rosenberg) In the last two decades, 
special education doctoral degrees have decreased by 30%. In addition, 
one third of all vacancies for special education faculty remain 
unfilled every year. This exacerbates the special education teacher 
shortage, which has now become as critical as the shortages of math and 
science teachers (American Association for Employment in Education).
                               references
American Association for Employment in Education, (2000). Teacher 
        supply and demand in the United States. Columbus, OH: American 
        Association for Employment in Education.
Interstate New Teacher Assessment and Support Consortium (INTASC) 
        (2001, May). Model standards for licensing general and special 
        education teachers of students with disabilities: A resource 
        for state dialogue. Washington, D.C.: Council of Chief State 
        School Officers.
Pugach, M.C. (2005). Research on preparing general education teachers 
        to work with students with disabilities. In M. Cochran-Smith & 
        K.M. Zeichner, Studying teacher education: The report of the 
        AERA panel on research and teacher education (pp. 549-590). 
        Mahwah, NJ: Erlbaum.
Smith, D.D., Pion, G., Tyler, N.C., Sindelar, P., & Rosenberg, M. 
        (2001a). The shortage of special education faculty. Why it is 
        happening, why it matters, and what we can do about it. 
        Washington, D.C.: U.S. Department of Education, Office of 
        Special Education Programs.
Study of Personnel Needs in Special Education (SPeNSE, 2000). General 
        education teachers' role in special education (fact sheet). 
        Retrieved 30 May, 2006, from http://ferdig.coe.ufl.edu/spense/
The National Commission on Teaching and America's Future. (1996). What 
        matters most: Teaching for America's future: Summary report. 
        New York: Author.
U.S. Department of Education, Office of Special Education Programs. 
        (2004). Twenty-Sixth Annual Report to Congress on the 
        Implementation of the Individuals with Disabilities Education 
        Act. Washington, DC: Author.
Utah State Office of Education (2006). Three Tier Model of Reading 
        Instruction. Salt Lake City, Utah: Author
Vaughn, S., Bos, C.S., & Schumm, J.S. (2007). Teaching exceptional, 
        diverse, and at-risk students: IDEA 2004 update edition. 
        Boston: Allyn and Bacon.
1Portions of this testimony were excerpted from Hardman, M., & 
        McDonnell, J.M. (in press). Teachers, pedagogy, and curriculum. 
        In L. Florian & M. McLaughlin (Eds.). Perspectives and Purposes 
        of Disability Classification Systems in Research and Clinical 
        Practice. London: Sage Publications and The Higher Education 
        Consortium for Special Education and the Teacher Education 
        Division of the Council for Exceptional Children. (2006). 
        Recommendations to the NCLB Commission for the Reauthorization 
        of No Child Left Behind. Washington, D.C: Author.
                                 ______
                                 
    Chairman Kildee. Thank you. Good. Right on time.
    We will take 5 minutes, though, to hear Dr. Henderson. And 
we will still be able to make it in time to vote and come back 
here.
    Dr. Henderson, you may proceed.
    Thank you, Dr. Hardman.

 STATEMENT OF WILLIAM HENDERSON, ED.D., PRINCIPAL, THE O'HEARN 
                       ELEMENTARY SCHOOL

    Mr. Henderson. Chairman Kildee, Ranking Member Castle and 
members of the committee, it is a privilege to be here. I am 
principal of the O'Hearn School, which is in Boston, 
Massachusetts.
    Our students reflect the diversity of our community, 
approximately 45 percent African-American, 30 percent 
Caucasian. The remaining 25 percent come from countries all 
over the world. The majority of our students qualify for free 
and reduced lunch.
    The O'Hearn is an inclusive school. Thirty-three percent of 
our students have a disability. At the O'Hearn, students 
involved in general education, students with mild, moderate and 
very significant disabilities, and students considered talented 
and gifted learn together and from each other.
    We are a very popular school under the choice program in 
Boston. Overall, our students' performance has been successful. 
For the first time, though, last year we did not make AYP. We 
need to do better, and we will.
    I would like to briefly highlight the situations of four 
students and then suggest some ways that NCLB has benefited and 
some ways that it could be more helpful to these children. I 
have changed their names and the details, but these situations 
are real.
    William came to the O'Hearn when he was 3 years old. He has 
autism. His pediatrician wanted him to attend a school with 
just autistic children. But the parents insisted that he be 
with his peers, although he certainly exhibited some social 
quirks and communication issues. And we worked with a 
behavioralist and a speech pathologist. He excelled 
academically. We have involved him in drama, both during and 
after school. And he is an outstanding student academically.
    Kaylo is a boy born to a mom who had some drug addiction, 
has some cognitive delays, emotional disorders, entered our 
school in kindergarten. We gave him some speech and O.T. 
services. He was behind academically, although up there 
physically, we retained him in kindergarten, did some early 
intervention, language-based programs and we also gave him 
universal design and access to books and cassettes.
    But as he got older, the skill level of the material became 
increasingly frustrating to him. And we had more behavior 
problems in class due to his frustration. Just last year his 
IEP team decided to modify his skill level. And he is now 
performing much better. He is also a great athlete and involved 
in the school store.
    Maria is a girl who was born blind. She started out in a 
substantially separate school for kids who are blind. Her 
mother wanted her to make more academic rigor, and transferred 
her to the O'Hearn. Like her principal, she is learning to use 
Braille mobility. She reads using a Kurzweil. She sings. And 
she is a very popular student at our school.
    And Carla is a student who came to us in kindergarten, very 
active physically, having some problems with letter 
recognition. We did a lot of phonetic awareness programs with 
her. For some kids, this makes a real impact and difference. 
For her, she is still struggling. We switched her to Kurzweil 
and assistive technology. She has been thriving, and is also a 
very great visual artist.
    How has NCLB helped these students?
    First, all of these children have access to highly 
qualified teachers, support staff who collaborate extensively 
and have very deep conversations now about what we can do and 
what strategy we can use to help them perform at higher levels.
    All of these children have access to universally designed 
curriculum with extensive accommodations to help them access 
text books and books, instruction, and current assessments. And 
all these children also have participated in additional 
instructional time and not sacrificed in the arts, which is so 
important to all children, particularly for kids--and physical 
education--for kids with disabilities.
    My recommendations for improving NCLB would be the 
following.
    First, considering asking states to conduct a federal 
review of the accommodations standards. We have to safeguard 
accommodations for our children with disabilities. I am very 
concerned that two of the children I mentioned and perhaps 
their principal could not get a high school diploma in some 
states, yet we could do fine and get degrees in colleges.
    Secondly, we want to make sure we don't get involved in a 
testing frenzy. Nine days of testing is too much for our 5th-
graders, value added.
    And finally, I wanted to say that parent involvement is 
critical, not just being involved in IEPs, but seeing what 
strategy is used to help children be successful, offering 
suggestions what parents can do, and reinforce these strategies 
at home.
    Thank you very much.
    Chairman Kildee. Thank you very much, Dr. Henderson.
    And we apologize. We will repair to the chambers to vote. I 
ask all members to vote at the door and run right back here.
    So you can take a break. But thank you very much. This is a 
day we are passing the budget, and ordinarily we don't have 
hearings. But this hearing was so important we decided to go 
ahead with it even though we are passing the budget.
    So if you pray, pray that we pass a good budget over there.
    [Recess.]
    Chairman Kildee. We have finished the vote on--I think we 
have four different budgets we are voting on today, at least 
four. So we have started one. We will probably have some time 
now for a while again.
    I have been here 30 years, but Dr. Boustany and I ran 
together back over here. Some of the other younger members are 
still making their way over here.
    I really appreciate the testimony. It has been excellent.
    I would like to ask a few questions.
    Dr. Rhyne, you testified about different states having 
different N-sizes. And that has kind of puzzled us a bit, too. 
I think Maryland has an N-size, except for these students, of 
five. It varies in Texas. It can go as high as 200. And I think 
California has 100.
    What should we do, and how does that wide disparity affect 
what is happening out there?
    Ms. Rhyne. With that wide disparity, a lot of students with 
disabilities are being left out of the accountability system. 
Over half of the states have N-sizes that are over 40. And if 
you look, for example, an elementary school, an average 
elementary school might be somewhere between 450 and 500 
students. You are leaving out those children.
    We do have five states in the nation that have 
differentiated N-sizes. So the N-size for one sub-group of 
children is different from another sub-group of children. So I 
believe the Council of Great City Schools recommends that we 
have N-sizes of about 20 and, with a waiver, maybe 30. And then 
we would be catching and putting in all of the students with 
disabilities and being accountable for them.
    Chairman Kildee. Do you think it would be prudent and wise 
for this committee to standardize that N-size, perhaps along 
the lines of the Great City Schools you mentioned?
    Ms. Rhyne. Absolutely, I do, absolutely.
    Chairman Kildee. All right. Very good.
    Dr. Cort, with reference to the subset of the so-called 2 
percent students who are able to progress toward their regular 
diploma, you testified that they ought to be allowed to proceed 
at a slower but equally rigorous pace.
    Since these students are generally starting at below grade 
level to begin with, how does this translate to progress toward 
that regular diploma?
    Ms. Cort. Well, I think the entire process is likely to 
take longer. And that is why under IDEA the ability to stay in 
school until you are 21 years old is of great benefit. I don't 
think that all of these students will be able to master high 
school within the 4 years expected or that they will graduate 
at the same time as their non-disabled peers. And I think if we 
do move to some growth models, I think we will be able to see 
how fast we can have students make progress.
    With really intensive special education services, the hope 
would be that some students can actually gain more than a year 
in a year's period of time. But those are the kinds of things 
we need to evaluate.
    Chairman Kildee. Okay. Thank you very much.
    You know, when I wrote the law back in Michigan, I put the 
years 0 to 26 as the ages to be covered. And I remember the 
superintendents called me in in August just before the bill was 
to take effect begging me, first of all, to give them 1 more 
year, secondly, to change 0 to 5 and 26 to 18. But we retained 
the 0 through 26.
    The 0 was very important because certain disabilities 
require--I used to think more simply in those days--just 
deafness would require that you break that communication 
barrier. But we know now that the very physical development of 
the brain requires that early stimulation. We have learned so 
much since the days that we first passed special education.
    But thank you for your input here.
    Dr. Henderson, in your written testimony you testified that 
in some states your blindness would prevent you from receiving 
a high school diploma. Could you elaborate on that?
    Mr. Henderson. Sure. Even in Massachusetts when the MCAS 
test was first administered for the English language arts 
section of the test one had to read it with their eyes and 
answer with a pencil and paper. Am I an illiterate principal 
because I can't read the information the same way that most of 
the people here can?
    I think not only for blind children but also for children 
with significant learning disabilities we ought to have the 
opportunity to access information in multiple formats, whether 
it be with our eyes, our ears or our fingers, and to 
demonstrate our understanding and knowledge of that 
information, those rights and protections that were provided to 
me as a teacher who became blind and an administrator under 
section 504 and the ADA national safeguards.
    We need to look at national safeguards for accommodations 
for children who need access to the curriculum and to 
assessments.
    Chairman Kildee. Certainly, we know that the nature of God 
gave us at least five senses. Right? I know we are able to use 
all those senses. And I appreciate your response.
    Dr. Boustany?
    Dr. Boustany. Thank you, Mr. Chairman.
    Dr. Rhyne, you state that you support the growth models but 
that tying them to proficiency will not recognize growth that 
is achieved below that level. My concern is that we will 
recognize growth below proficiency without ever being 
accountable for ensuring that the child can perform 
commensurate with his or her grade ability or level.
    Do you have a recommendation for how a growth model could 
be established and would encourage growth toward a proficiency 
target and recognize growth below that level?
    Ms. Rhyne. Yes, I do. I think there are several ways that 
this could be addressed. For example, children who we could 
measure the growth in their scale score and compare that scale 
score to the scale score of the state, for example. We could 
look at movement from below proficient to the proficiency 
range. So that is one way to do that.
    Dr. Boustany. I thank you.
    Dr. Cort, within the subset of the 2 percent population 
that you feel does not need modified standards but freedom to 
progress at a slower pace what kind of guidelines would need to 
be put into place to help IEP teams determine what level of 
instruction and assessment would be appropriate for each 
student?
    Ms. Cort. Well, there is a great deal of work that is done 
as you develop your annual review and the triennial evaluations 
are conducted under IDEA to determine the current and 
functioning levels of students with disabilities.
    I think this is an area, though, that really requires a 
good deal of intensive research identifying which is a true 
student who is learning at a slower pace because of their 
disability versus a student who looks similar in performance 
but it is because they haven't gotten appropriate instruction 
that they are not making that progress is a tough distinction 
to make.
    And I think that we do have to help IEP teams understand 
different evaluation techniques to determine some of those 
things and also to be looking better at a record. I think if we 
move to some growth models and if we look at something like 
response to intervention, which is talking about good 
instruction and constant progress monitoring, then you can tell 
are students responding to instruction, should they be able to 
move more quickly or is it truly a result of their disability.
    So I do believe that we don't have sufficient research or 
enough information here and that NCLB and IDEA could help 
contribute to that process by putting some dollars into that 
kind of research.
    Dr. Boustany. I thank you.
    Ms. Quenemoen, you discussed the impact that high quality 
instruction can have on a student achievement for this sub-
group. What is being done to share this information? And are 
states and school districts receptive to this approach?
    Ms. Quenemoen. Well, that is an interesting question, 
whether they are receptive or not. We are certainly seeing 
spotty patterns of where full states, in some cases, but 
certainly even within states where the leadership is 
systematically developing staff development rollouts, if you 
would, of these best practices.
    I think some of the concern is a centuries-old bias and 
assumption about what students with disabilities or what people 
with disabilities can and should be doing. So in some cases 
there is resistance that even administrators aren't aware of. 
And that is very difficult. Attitudes are very, very difficult 
to change.
    However, I think Dr. Hardman's testimony about an 
institution of higher education really rethinking the whole way 
they prepare teachers is probably our longest-term opportunity 
for really ensuring what we understand about effective 
instruction and high expectations is embedded in our teaching 
force.
    So I credit many states for systematic and long-term 
commitment to higher expectations and support through 
professional development. Ultimately I think our institutions 
of higher education bear a huge burden in order to get that 
fully institutionalized.
    Dr. Boustany. Thank you.
    One last question, Mr. Chairman, if I might, for Dr. 
Hardman.
    You criticize the flexibility that the department has 
allowed for teachers going through alternative certification 
programs. States and school districts are telling us that 
alternative certification programs are an absolutely critical 
tool for meeting the demand for teachers in the classroom.
    Are you concerned that eliminating this flexibility would 
only exacerbate shortages that we are already seeing with 
teachers?
    Mr. Hardman. The concern about alternative preparation 
programs--first let me say that the range of quality 
alternative preparation programs varies considerably from state 
to state and from area to area, as does the range, by the way, 
of university programs.
    I think that the issue is that when you are preparing 
teachers, every teacher, every institution, every program 
should be held to the same high quality standards so that we 
have a consistent understanding that schools have a good, 
consistent knowledge that the teachers that they are receiving 
from wherever they are coming from, alternative or traditional 
university programs, meet those standards.
    When you allow teachers to move into classrooms who have 
not completed those standards and have up to 3 years to 
complete them, you have a different teaching force moving into 
the schools.
    And I also think that there are some concerns about higher 
attrition and documented evidence that indicates that you have 
a much greater chance of losing teachers who are not well-
prepared, whether they be in a university or an alternative 
preparation program.
    Dr. Boustany. Certainly. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kildee. Thank you, Dr. Boustany.
    Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman, for holding this hearing 
today.
    And I have found that we seldom address or fully fund 
programs to support the population of people with disabilities.
    Over the February recess, I toured Roosevelt Junior High 
School in Monmouth, Illinois, which is in my congressional 
district, to see the successes the school has had with its 
positive behavior intervention and support programs, also known 
as PBIS.
    Through positive behavioral practices in which students 
were taught leadership, teamwork, and were rewarded for good 
decisions and good behavior, Roosevelt Junior High has seen a 
drastic decrease in disciplinary measures and increases in 
academic, social, and emotional function among its students.
    More amazing is the fact that the schools in Illinois that 
have implemented the PBIS have seen lower rates of special 
education testing and placement of students.
    And I ask for unanimous consent to submit the Illinois case 
study example into the record.
    Chairman Kildee. Without objection.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Hare. And then, according to a statement by the 
American Occupational Therapy Association, which I also ask for 
unanimous consent to submit, early intervening services under 
IDEA provide school-wide targeted and individual interventions 
for children who are struggling academically and behaviorally. 
The implementation of school-wide support programs such as PBIS 
improves academic and behavioral outcomes for students with 
disabilities in both general and special education.
    Chairman Kildee. Without objection to your second request.
    [The information follows:]

  Prepared Statement of the American Occupational Therapy Association 
                                 (AOTA)

    The American Occupational Therapy Association (AOTA) submits this 
statement for the record of the March 29, 2007 hearing. We appreciate 
the opportunity to provide this information regarding the relationship 
of occupational therapy services to improving results for children with 
disabilities under the No Child Left Behind Act (NCLB).
Occupational Therapy Services under IDEA and NCLB
    Occupational therapy is concerned with an individual's ability to 
do everyday activities, or occupations, so that they can participate 
fully in school, at home, and in the community. Occupational therapy 
practitioners use purposeful activities as therapy to help children 
bridge the gap between their capacity to learn and full, successful 
participation in education, work, and play.
    Occupational therapy services in schools are intended to help 
children succeed academically and behaviorally. Intervention strategies 
focus on information-processing, academic skill development, social 
interactions and the ability to function in the school environment. For 
adolescents, occupational therapy focuses on preparation for work, life 
choices, improvement of social and work skills, and learning how to 
create or alter the environment to maximize productivity.
    The advent of early intervening services under IDEA 2004 provide 
for the funding of school-wide, targeted and individual interventions 
for children who are struggling academically and behaviorally. 
Implementation of models of school-wide support such as Response to 
Intervention (RtI) and Positive Behavioral Supports (PBS) are general 
education initiatives that have demonstrated the ability to improve 
academic and behavioral outcomes for students with disabilities in both 
general and special education. AOTA believes that early intervening 
funds support student achievement in a very similar way to how Title I 
funds support improvements of academic achievement for the 
disadvantaged and that Congress should designate a portion of Title I 
funds to expand early intervening services to provide additional tiered 
supports to struggling students at risk of failure or special education 
identification.
How Occupational Therapy Helps Students with Disabilities
    Occupational therapy intervention for children and youth is planned 
in consultation with parents and families, teachers, and other 
professionals, and is directed toward achieving successful educational 
outcomes. Depending on the student's age, the presence of learning 
difficulties or behavioral issues may have debilitating effects on his 
or her sense of accomplishment or social competence. Occupational 
therapy intervention for these students can address these stresses by 
identifying psychosocial problems and appropriate strength based coping 
strategies.
    Occupational therapy can have a significant supportive role in 
assessment of students with disabilities under NCLB. The occupational 
therapists' expertise can help teachers and IEP Teams to identify 
appropriate accommodations needed to support the student's skill level. 
This includes identification of and training in the use of assistive 
technology or other aids that will help the student to more 
successfully participate in state and district assessments. 
Occupational therapy expertise in function and performance can also 
contribute to the identification of children who need modified 
assessments in order to more effectively demonstrate their academic 
progress.
    AOTA believes that occupational therapy is an underutilized service 
that can meet and address children's learning, social and behavioral 
needs. This limited access affects both IDEA-eligible students as well 
as students in general education. Often, this limitation is due to a 
lack of understanding about how occupational therapy can help or 
because of perceptions that therapists only address ``motor'' issues. 
Occupational therapy can be invaluable in helping parents and school 
staff to understand the relationship between the physical and 
psychosocial aspects of development and performance, and developing 
strategies to improve academic and behavioral outcomes for children 
with disabilities
    Again, we thank you for the opportunity to comment on the important 
issue raised by this hearing and look forward to continue working with 
the Committee to improve outcomes for all students
                                 ______
                                 
    Mr. Hare. Thank you, Mr. Chairman.
    So, Dr. Hardman, if I could ask, you testified about the 
need to target Title II funds to address the shortage of 
special education teachers and special ed faculty shortages. 
However, secondary intervention systems have shown to lower the 
rates of special education testing and placement of students.
    So could programs like this PBIS solve the problems or help 
to solve the problems of teacher shortages by decreasing the 
population of students identified by IDEA?
    Mr. Hardman. I think, the first part of your question, the 
answer is yes, but for all the right reasons. And that is that 
these students are receiving appropriate education, whether 
they meet a general or special education program. And that is 
the issue. And the answer is yes.
    Our model universal design for learning and response to 
intervention all fit into that same model of prevention and 
allowing us to provide the kinds of services that will allow 
students to move forward and not need necessarily over time the 
intensity of instruction that has been associated with special 
education.
    Historically we are a field, special education, that waits 
for children to fail. We are now a field that is thinking much 
more about prevention. So the answer is absolutely yes.
    Mr. Hare. Thank you very much.
    Dr. Rhyne, you testified in support of the growth program 
and model for students with disabilities. Can you describe what 
that model might look like?
    Ms. Rhyne. Yes. Rather than students meeting absolute 
standards, we have many, many students with disabilities who 
teachers, principals, schools--they are getting no credit for 
the tremendous growth that individual students are showing. And 
there needs to be some way that schools and teachers can 
receive credit for that growth rather than meeting an absolute 
standard.
    And as I indicated before, something like growth and scale 
scores, for example, as compared to the growth at the state, 
some way to acknowledge that students are making progress. But 
as Dr. Cort has recommended and has testified, it is going to 
take longer for some students.
    Mr. Hare. Another question I have, Dr. Rhyne, is, do you 
have specific recommendations on how we can improve the 
recruitment and retention of special ed teachers?
    Ms. Rhyne. Yes, I do.
    Mr. Hare. I thought you might. [Laughter.]
    Ms. Rhyne. Yes, I do.
    You had mentioned PBIS in a question, your former question 
to Dr. Hardman. And the Charlotte-Mecklenburg Schools has 
embarked on a multi-year project of putting PBIS in our 
schools.
    And like the example that you gave, we have seen dramatic 
results in our schools. For example, when we looked at all 
elementary schools that were implementing PBIS during the 2005, 
2006 school year, I believe we had a 40 percent reduction in 
referrals to the office.
    We have done PBIS. We have got everybody in a school 
working on PBIS, from cafeteria workers to bus drivers to 
custodians. And a key to its success is that everybody is 
implementing it the same way and that the adults get together, 
agree and then are consistent.
    So that is a roundabout answer to one of the reasons that 
people leave the field, that have been indicated to our school 
district is over the area of discipline and behavior of all 
students in a school.
    And so, with a process like PBIS where teachers could be 
assured that there is a very systematic way of teaching 
children about behavior--when a child can't read, what do we 
do? We teach him to read. When a child is going to learn to 
drive, we teach them to drive. But when a child can't behave, 
we traditionally punish them. And so, PBIS is a teaching 
method.
    So I think programs like PBIS would be incredibly important 
for a school district to implement. I think anything that we 
can do where we provide comprehensive intervention, for 
example, comprehensive intervention in reading, so that we have 
more children performing on grade level.
    And I think for children with disabilities and for general 
ed children as well, what we have found in Charlotte-
Mecklenburg to be extremely important and extremely successful 
is pairing general ed and special ed teachers to co-teach in a 
classroom. And we are influencing the success of not only the 
children with disabilities in that classroom, but also general 
ed children as well.
    So it is multiple things.
    Chairman Kildee. The gentleman's time is expired.
    The gentleman from Puerto Rico, Mr. Fortuno?
    Mr. Fortuno. Thank you, Mr. Chairman. And again, I thank 
you for today's hearing. I believe we are examining today a 
very important issue to the children of America, including 
those living in Puerto Rico.
    First today, I would like to share with you all some 
concerns that I do have with the Department of Education in 
Puerto Rico, which I believe is falling short in its oversight 
responsibilities by neglecting its students with disabilities.
    To illustrate this, I am sharing a letter to the committee 
addressed to Chairman Miller and Ranking Member McKeon from Mr. 
Alpidio Rolon, who is the president of the Puerto Rico chapter 
of the National Federation of the Blind. In his letter he 
outlines important issues that deeply affect those with 
disabilities and details the shortcomings of the Puerto Rico 
Department of Education.
    Mr. Chairman, I am asking unanimous consent to include this 
letter as part of our record.
    Chairman Kildee. Without objection.
    [The information follows:]

                                     San Juan, Puerto Rico,
                                  (Sent via email), March 28, 2007.
Hon. George Miller, Chairman,
Hon. Howard P. ``Buck'' McKeon, Ranking Member,
House Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Chairman Miller and Ranking Member McKeon: ``No Child Left 
Behind.'' Would that it were true for children in Puerto Rico. 
Especially for blind children.
    According to the Puerto Rico Department of Education's 2005 ``Child 
Count'' data, 673 students were classified as blind or visually 
impaired. Of these 35 received Braille books. The Department of 
Education states that 29 blind students ot of 439 receive Braille books 
during 2006-2007.
    NCLB emphasizes that good reading and writing skills ensure the 
advancement in life. For blind children, learning to read and write 
Braille is the gateway to success. Dr. Ruby Ryles, Louisiana Tech 
University professor, has stated in her study ``The Impact of Braille 
Reading Skills on Employment, Income, Education, and Reading Habits'', 
that there is a direct correlation between good reading and writing 
Braille skills and good gainful employment. In Puerto Rico, the 
Department of Education pays little or no importance to Braille.
    Two weeks ago, a teacher of blind children came to one of the 
Braille classes that NFB teaches at the Puerto Rico Regional Library 
for the Blind and Physically Handicapped. I say came to one class, 
because she never came back. The teacher who shall remain nameless, 
read Braille with her eyes and not her fingers as a blind person does. 
I should add that most sighted Braille teachers in Puerto Rico read 
Braille with their eyes. Obviously, they cannot transmit to blind 
students what NCLB states about establishing a relation between the 
grapheme and phoneme. Any child, whether blind or sighted, must learn 
to connect in his or her mind, the relation between form and sound. 
Most blind students in Puerto Rico are not getting that. Mind you, 
under section 614 (d) (3) (B) (iii) of IDEA, Braille is the fundamental 
system for teaching blind children how to read and write. On the other 
hand, Puerto Rico's 2002 Public Law 240--Braille Literacy Act--states 
that Braille is the fundamental reading and writing method for blind 
children. It also establishes that Braille teachers should be certified 
by the National Library Service for the Blind and Physically 
Handicapped. Regretably, Article 9 of the law states that the law will 
enter into effect when the Department of Educacion requests funds for 
its implementation. It still has not seen fit to do so.
    Two weeks ago, a local bank announced the installation of speaking 
automatic teller machines for the blind. Present at the inauguration, 
were a group of blind children from the Instituto Loaiza Cordero, a 
school for blind children. One can only say they were there for show 
because their main contribution was to sing. According to people 
present at the inauguration, none of the children carried a cane. An 
indispensable instrument if a blind person hopes to be successful in 
life. Children at Loaiza Cordero--a deplorable excuse for a public 
school--are not given a real chance to succeed. They are not taught to 
use a cane from early childhood. Students with residual vision although 
legally blind are not taught Braille. Orientation and mobility as 
Braille, is one of the basic skills that all blind persons should learn 
if they wish to succeed. It is also established as a must have skill in 
IDEA. Blind children, if taught O and M, should be able to move from 
place to place independently. Too many times we see--even in regular 
schools--how blind children are moved from classroom to classroom by 
teachers or assistant.
    In 1980, MS Rosa Lydia Velez--mother of a disabled child--sued the 
Department of Education because it was not providing her daughter the 
necessary special education services. By 2003, the suit had become a 
class suit, and the Department of Education finally decided to enter 
into stipulations on how to remedy the abominable special education 
situation. Four years later, and millions of dollars paid in fines, the 
Department of Education has yet to settle the case. Obviously, the 
thousands of children for whom the Department of Education has not 
provided adequate services since 1980 have been left behind.
    Lastly, it seems to us that if NCLB's basic principles--
accountability for results, emphasizes on doing what works based on 
scientific research, expanded parental involvement and options, and 
expanded control and flexibility--are to work, there should be more 
stringent Federal regulations and supervision. As the old United Negro 
College Fund ad says: ``A mind is a terrible thing to waste.''
    Hoping that my comments have in some way contributed to the 
reauthorization of NCLB process, I am,
            Respectfully,
                                             Alpidio Rolon,
                                                         President.
                                 ______
                                 
    Mr. Fortuno. Thank you.
    Actually, in his letter he states, for example, that, 
according to the Puerto Rico Department of Education 2005 child 
count data, 673 students were classified as blind or visually 
impaired. Of this, only 35 received Braille books. The 
Department of Education states that 29 blind students out of 
the 439 received Braille books during 2006 and 2007. More 
details are included in that letter.
    Actually, I should point out that in 1980 Ms. Rosa 
Lilavelez, the mother of a disabled child with whom I have met 
several times, sued the Puerto Rico Department of Education 
because it was not providing her daughter the necessary special 
education services. Ever since the 1980s on, what we have had 
is a bunch of lawyers becoming rich just handling what became a 
class action suit that to this day is not resolved.
    Another letter I would like to include for the record, if I 
may, Mr. Chairman--and for that I also ask unanimous consent--
is a letter from Ms. Maria Miranda, who is the director of the 
technical assistance program at the University of Puerto Rico.
    Chairman Kildee. Without objection.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Mr. Fortuno. Thank you, Mr. Chairman.
    In her letter, Ms. Miranda points to serious problems such 
as a lack of teacher training in the use of technology in the 
schools. Some of the funds diverted from these same programs in 
the last 2 years would have actually addressed these issues.
    As I previously stated, it is a great disservice to those 
who need to benefit from the education the most, the children 
from my district--in this case, Puerto Rico--especially those 
with disabilities.
    I will ask the panel, if I may, if they know of any similar 
situations anywhere else in the country. And I have heard, 
actually, the passion which you all discussed different models 
and how you are handling these different challenging situations 
in your own districts. I would like for any insights that you 
may have regarding a very unique situation, as I see it, in my 
district.
    So I open it up. And maybe, Dr. Rhyne, you may want to 
start.
    Ms. Rhyne. Yes, sir. I think in order to improve special 
education in a school district it is imperative that the 
importance of educating all students be communicated from the 
school board through the superintendent and down all levels of 
the organization. And I don't believe you can make significant 
progress unless you have that.
    Additionally, I think it is incredibly important that 
general education, general educators receive more training and 
professional development on teaching students with 
disabilities. And I think our special education teachers need 
to become more adept at standard content.
    Our special ed teachers have traditionally been great at 
modifying and making adaptations in curriculum and instruction. 
And our general ed teachers have been masters at the specific 
content area. And so, if we can educate both groups and improve 
their skills or if we can do that through a co-teaching model, 
then all children benefit.
    Mr. Fortuno. Thank you.
    Ms. Cort. I think that the importance of partnerships comes 
in here very strongly. And when we have schools that are under-
performing or that don't have the knowledge base that they need 
to provide the services, we have to look at the university 
system, the linkages with the mental health systems and other 
systems in the community and, of course, the communication with 
parents.
    I don't think most teachers leave their institution of 
higher ed even with certification with all the skills or 
knowledge that they need to be good teachers. That happens as 
they are teachers and as they receive professional development 
and assistance from the leaders within those schools. So those 
are important pieces.
    And one of your first issues relative to Braille and 
services for students with severe physical disabilities, the 
technology now and the availability of adaptive equipment is 
just skyrocketing, given the systems that are going on 
technologically. But a lot of schools and families don't know 
that these things exist. There are new requirements in IDEA, 
like now publishers have to begin submitting their texts in a 
format that can be converted.
    And I think we are going to see a great advancement in the 
availability of universal design for learning and of materials 
that are appropriate to the needs of students with 
disabilities. But everyone needs to be educated on what is 
available. Some of it is more easily accessed than others. And 
some of it is expensive. And so, the dollars and the training 
need to go into this.
    Chairman Kildee. The gentleman from New Jersey, Mr. Payne?
    Mr. Payne. Thank you very much.
    In regard to the growth model, I know, Dr. Henderson, you 
testified in support of a growth model. And I was wondering and 
listening to Dr. Rhyne if you could describe what the model you 
would have in mind, what it would like. Are you for the growth 
model?
    Thank you.
    Mr. Henderson. Yes, particularly one example. In Boston 
this year on the front page of the Boston Globe, they 
highlighted two high schools, particularly where you see a lot 
of stratification of students. One of the high schools was an 
exam school and only students get in who score high on exams. 
And the other high school was one that serves students with 
significant behavior problems and many involved with the law.
    To compare these two schools' performance on the same test 
is not fair. And for that school that has the students that 
have had difficulty throughout elementary and middle school 
years who are going to an alternative school--we are trying to 
keep them in school--dealing with a range of issues for the 
hope and sake of the hard working teachers and staff and 
children and families there, we have to be able to show some 
kind of growth, also in schools that are dealing with children 
with mild cognitive delays.
    We have got a little bit of a problem here. If children are 
truly cognitively delayed, are they truly ever going to become 
proficient? Now, there are many children who are classified as 
being cognitive delayed who are not. And it is important that 
we provide opportunities for rigorous standards and instruction 
so we can achieve as much as the potential as we can. But for 
those children with cognitive delays, it is important, again, 
for those children, their parents, their teachers, and schools 
that we can demonstrate the hard work and growth and strides 
that are taking place.
    Mr. Payne. Thank you very much.
    While your microphone is on--or you can put it back on--you 
talk also about the importance of parental involvement. And I 
just wonder if you can describe your school's effort in this 
area and any specific efforts targeted at parents of students 
with disabilities.
    Mr. Henderson. Yes, we are striving to show parents of kids 
with disabilities, who also need to be helped with high 
expectations, seeing their children successful in academics and 
the arts. So we have publishing parties where we invite parents 
and do outreach, and they see and hear their children reading 
their stories or using communication devices to share their 
stories.
    We have math family nights--and the new math instruction is 
hard for many families to understand--where we have math games. 
We are not just lecturing, but they experience, and they see 
their children in action. And we do performances, African-
American history. There is a biography day going on in our 3rd-
grade classroom today.
    Parents yearn to see their children successful. And they 
want to learn about strategies that they can use in their homes 
to enforce them.
    But we are also struggling, in addition to some of the 
techniques we use, to provide the resources. There is a digital 
divide. And some of the children at our school don't have 
access to the computers at home. And even though we have the 
great federal law, we also have to have technology that can 
work. And we now have partnered with CVS and Easter Seals.
    And they are sending parents into the homes of children 
that do not have some of the same technology and same 
educational background. We are showing them what they can do to 
help their children with Braille instruction, with reading, 
with math problems. It takes a lot of energy, and we need all 
the partnerships we can to do a better job.
    Mr. Payne. Thank you very much.
    Dr. Cort, you testified that many supplemental educational 
service providers do not provide services to students with 
disabilities. How difficult is it for students with 
disabilities to find these services? And why do so many 
providers not work with these students?
    Ms. Cort. Well, there currently isn't any requirement that 
they work with these students. And I think that the needs of 
students with disabilities are more intensive, and some 
providers don't believe that they have the capacity to do it 
and may not want to do it. Certainly, the amount of funding 
that is available for supplemental education services isn't 
extensive. And even for those serving students who aren't 
disabled there isn't a requirement for teacher certification.
    Many of these programs use college students or tutors who 
are trained minimally. So I think that that is part of the 
reason why it is so difficult. There is a shortage of special 
education teachers even within the regular day in the 
classroom. And supplemental providers often don't have access 
to the equipment, to the materials, don't understand the needs 
of students with disabilities.
    And that is why, I think, we believe that having some 
alternative to how those dollars could be spent and focused and 
targeted on students with disabilities in some cases, during 
the school day and in other cases, by the school district 
before or after school, weekends, that that would be a more 
productive way to deal with an issue when it is the subset of 
students with disabilities who are not making AYP.
    Chairman Kildee. The gentlelady from California, Ms. Davis?
    Mrs. Davis of California. Thank you, Mr. Chairman.
    And thank you to all of you for being here. I know we are 
all grappling with how we do this better. And I appreciate the 
fact that you have certainly been looking at this seriously.
    I wanted to turn to one of the issues about the 
accommodations that are considered acceptable under NCLB. We 
had a situation in one of the schools in San Diego where 
students whose IEP called for their opportunity to use 
calculators that was actually considered out of compliance as a 
result of that.
    And I wondered if you could discuss a little bit more--I 
think it was Dr.--who mentioned just the number of 
accommodations that you have looked at.
    Could you talk about these a little bit and how the 
Department of Education is assisting states in developing these 
accommodations, again, these allowable accommodations under 
IEPs and whether you think there has been a real inconsistency 
in the way states have dealt with it?
    Ms. Quenemoen. Determining the appropriateness of the use 
of accommodations on a particular assessment or portion of an 
assessment is a fairly complex technical challenge. The use of 
some change in administration in order to either take in or 
give back the content on the test can change what, in fact, is 
being tested. So states have an obligation to think very 
carefully what kind of content do we really want to hold as 
essential for all of our children and then on those tests 
represent that content well.
    If students take a test that, in fact, changes the content, 
then you have lowered the standard of accountability. On the 
other hand, if a student does not have access to any portion of 
the test, then you have a question of whether or not the 
student has really been able to show you what they do, in fact, 
know.
    Mrs. Davis of California. Could you just--calculators, for 
example.
    Ms. Quenemoen. Calculators are a pretty common discussion 
these days. The use of a calculator on problem solving items, 
for example, may, in fact, be a very appropriate way for a 
student to demonstrate that they have, in fact, developed high 
order problem solving and thinking skills using mathematical 
concepts, even though they may not have mastered automatically 
adding, subtraction, multiplication, and division.
    There are students with math challenges based on their 
disabilities who do not do math timing tests well but, in fact, 
go around the affects of those disabilities to very complex 
mathematical content. So in many states, they have a portion of 
the mathematics test, especially at the lower grade levels, 
where they are measuring whether or not a student can do 
computation with automaticity, they call it, quickly and 
respond easily.
    And these children are not allowed to use calculators on 
those items. And no one is surprised when they don't do well on 
those items.
    But if they are allowed to use calculators on the portions 
of the test that help them show the very complex and abstract 
problem solving that they have been taught, then very often in 
states that have designed their tests thoughtfully, those 
students can compensate for the inability to do the computation 
items. That is true in instruction as well.
    And the bad news is that we have found through surveys that 
many teachers don't understand the difference between use of 
accommodations for instructing that interesting material that, 
in fact, prevents the student from learning other content as 
well.
    Mrs. Davis of California. As we think about a growth model, 
improvement model, I think one of the other things is that 
actually the number of districts that have been considered not 
qualifying under AYP is actually relatively small when it comes 
to some of these issues with the use of accommodations.
    But I am also wondering, as we move to a growth model, do 
you think that would change?
    Ms. Quenemoen. It is really important, using any kind of 
growth model, to make sure that the affects, positive and 
negative for all sub-groups of students, are carefully 
analyzed. Growth models are only as good as the underlying 
assessment on which they are based. Not all assessments may be 
up for the purpose of really showing what a variety of learners 
who take different paths.
    The example I used of a student who doesn't do the 
computation pieces but has learned to do the abstract math--
many growth models don't pick that up. So we are very happy 
that the states in the growth model pilots are very carefully 
analyzing the affects of their growth models. We are also very 
interested in continued research on what growth really means in 
the academic domain and how a variety of students yield it.
    If growth is built on what historically a sub-group has 
done, students with disabilities and many of the other students 
that are on the bad side of the achievement gap could be held 
to a lower standard because we don't really know, as Dr. Cort 
said, it is very difficult to discern between a student who is 
getting high quality instruction and moving very slowly versus 
a student who has not been getting instruction in the 
challenging content. So growth models are tricky.
    Chairman Kildee. The gentleman from Maryland, Mr. Sarbanes?
    Mr. Sarbanes. Thank you, Mr. Chairman.
    I wanted to follow up on the discussion relating to teacher 
preparation. And I spent 8 years working with the Baltimore 
city school system. And there were severe shortages there of 
special education teachers, as well as in the other subjects 
that you have mentioned.
    But I am trying to get my head around what I think I hear 
being described as a kind of new kind of teacher. And, I mean, 
50 years from now, 25 years from now or 5 years from now are we 
talking about a teacher who, as part of their basic preparation 
in education, become so skilled--I mean, is this the desire--
become so skilled in the delivery of differentiated instruction 
that their ability to handle all challenges within a classroom 
is such that the number of ``special education'' teachers that 
we need in the education system is going to go down or they are 
going to become reserved for just special circumstances?
    I mean, if you could just speak to that issue a little bit 
more. Because we may be standing sort of on the verge of a 
whole new concept of what the typical teacher is in our system. 
And if that is really what we are getting at, I think to say 
that explicitly is useful and to think about the implications 
of it. So if you could speak to that.
    Mr. Hardman. Well, I think that is an excellent question.
    First let me say that looking at teachers, whether they be 
general or special education, in isolation of a school-wide 
support system and their role within that system is what is 
really important. It is not going to be a decline in the number 
or the need for special education teachers.
    It is going to be role differentiation and how you work 
with children based upon their individual need. That is why RTI 
becomes so important.
    We are building our program off of the base that every 
teacher needs a core of knowledge. Every teacher, in order to 
work together, has to have a basic understanding, particularly 
now under No Child Left Behind in reading, math, and science, 
they need to understand. Historically special education, to be 
quite honest with you, was very good at collaborating with 
teachers but was often not meeting what general education 
teachers said they really needed, which was content.
    They need to understand how to work with children, both 
content and pedagogy, that is how to work with children who 
have reading difficulties in an inclusive classroom in which 
there are a variety of different learners that not only include 
students with disabilities, but include students from differing 
cultural and linguistic backgrounds, different socio-economic 
backgrounds. The classroom of today looks very, very, very 
different than it did even 10, 20 years ago.
    And it is a very diverse range of learners which requires a 
support system in place, not a single teacher, but a system of 
support. And a big part of that support is provided by a 
special education teacher who had knowledge, pedagogical 
knowledge about how to adapt instruction, modify, support, 
positive behavior supports, how to work with students with 
challenging behaviors, how to work with children who require 
intense instruction.
    As a matter of fact, the hallmark of special education is 
individualization, intensive instruction, and explicit teaching 
of basic skills. That is what they bring into that school-wide 
support system. And that is how they help general education 
teachers who still are facing classrooms of 30, 40 in Utah, at 
least that many, children in the classroom in which there are 
diverse learners, in which the teacher really needs a support 
system.
    There won't be a decline in special education teachers. 
There will be a role that they will definitely play as a part 
of that team. And that is what we are really trying to focus 
on, is that you cannot look at teachers in isolation of a 
school-wide support structure.
    Mr. Sarbanes. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kildee. The gentleman from Iowa, Mr. Loebsack?
    Mr. Loebsack. Thank you, Mr. Chairman.
    Actually, I don't really have any questions as such. I 
apologize for being late. As a new member, I am finding out 
what all the veterans know, and that is that you have to be in 
four places at one time. So I was at another hearing.
    But I just want to briefly state that for the record and 
also to all of you on the panel I have been married for some 
time to a school teacher, elementary school teacher, who just 
retired after over 30 years of teaching at the elementary 
level.
    So I have heard a lot of stories, as you might imagine, 
about No Child Left Behind and its affects and the concerns. 
She expressed a lot of concerns and has over the years about 
students with disabilities being included in the classroom and 
not having enough resources to deal with it and not having been 
trained herself.
    Long ago, obviously to deal with these kinds of 
situations--and I have looked over some of your testimony. I 
really appreciate what all of you have had to say.
    And it is that I really don't have a question, but I just 
want to state for the record to the chair and others here that 
we have got to do all we can, certainly on the funding front, 
for IDEA, No Child Left Behind. Whatever we end up doing, 
whether we adopt a growth model, for example, as well for AYP, 
we have got to devote more resources to this.
    Resources won't solve the problem. But the problem won't be 
solved without the resources. That is for sure, however we go 
about doing this.
    So, again, I don't really have a question as such. But I do 
have some time left. I want to leave it up to any of you. If 
you have anything you haven't been able to say yet up to this 
point, I want to yield my time to any of you on the panel if 
you want to respond to any questions that you haven't had an 
opportunity to respond to.
    Ms. Cort. I would like to talk briefly about the second 
subset within the 2 percent that we haven't really discussed at 
any length today, because I don't want to be perceived as 
having much difference with my colleague here who was talking 
about high expectations for most students.
    And I think it is a small subset. But I do think that the 
issue of this group who falls between the 1 percent of very 
severely profoundly disabled group of students and those 
students who are able to get a high school diploma, which is by 
far the vast majority. And we must continue to have that as our 
high expectation.
    I think the issue of program development for this middle 
group--and some of them have mild mental retardation. Some are 
on the autism spectrum, some traumatic brain injury, severe 
traumatic brain injury. There is a group there who need 
something distinctly different. And they need preparation for 
employment and for independence when they leave the system.
    And I think there has to be some incentives to schools to 
develop these occupational, technical, vocational programs that 
prepare students to leave school ready to be employed, even in 
states--and we don't want the answer to be to lower the 
standards for a general education diploma, which has happened 
in some states. And so the focus on a program for a small band 
of students that gives districts credit for the development of 
programs that will lead to employment is very important.
    As the state director of both special ed and vocational 
rehabilitation, I see students exiting school and then needing 
to access the vocational rehabilitation system when their 
entitlement to service in the 21 years that they could have 
been serviced in their school districts hasn't served them as 
well as it should. And this is involved in transition planning, 
in getting access to the kind of programs that offer work 
readiness in a way that we don't have available for many 
students now.
    Ms. Rhyne. I would like to just comment on that, if I may. 
And that is in the state of North Carolina, there are four 
pathways to get a North Carolina diploma. One of those pathways 
is entitled the occupational course of study. This pathway was 
written specifically for the group of children that Dr. Cort 
has described.
    And it is as you get into high school, it is very focused 
on work. Students take occupational English, occupational math, 
science, social studies. And then they are required to spend 
1,000 hours of work. Work starts out within your school. It 
goes out into the community with a job coach. And then there 
are 300 some hours of paid employment that you must finish. 
When all of those credits have been earned, the student 
receives a North Carolina diploma. And this has been incredibly 
good for this group of students.
    Chairman Kildee. The gentleman from Pennsylvania, Mr. 
Sestak?
    Mr. Sestak. Thanks, Mr. Chairman. And I apologize for 
coming in late.
    Can I ask you a question, ma'am? As I go around my district 
and go to the intervention units or pathway schools or Easter 
seals schools and all, I find there seems to be this dilemma 
about IDEA and NCLB feeling that neither of them really had a 
strategic plan for all the disabled.
    I am concerned about the 1 percent cap because this seems 
that IDEA has the focus primarily upon--excuse me if these 
questions have been asked already--primarily upon both the IDEA 
and NCLB primarily upon those most severely disabled. And the 
question I have, as we have shifted from more toward--an idea 
that potentially we should have--some said we should have stuck 
with IEP.
    My question comes back to what does the data show. I am 
curious--and you may have already spoken of this--is what is 
the research showing about student performance of the severely 
disabled. Has there been a measurable improvement? In short, 
what accommodations are actually working? And do we have that?
    Ms. Quenemoen. I am assuming that your comment is related 
to those students who the regulation described as having the 
most significant cognitive disabilities. These are really less 
than half a percent in terms of incidents in the population.
    Mr. Sestak. Unless there is another way that we are 
measuring some other group somehow. And so, I am curious of 
those we have defined and those that are left out of the 
definition--do we have data?
    Ms. Quenemoen. We have data based on the student work in 
the states that have been, frankly, learning how to assess 
their learning. The field of severe disabilities has been in 
dramatic turmoil in the last 10 years similar to what it had 
gone through shortly after the passage of PL 94-142 back in 
1975. At that point, there was an assumption that these 
students could only learn what was called the infant curriculum 
and that we would systematically move them through stages that 
we saw in other children much younger.
    And after a number of years, based on what parents, 
teachers, professionals knew that these students could do 
independently in other settings, they started characterizing 
that developmental curriculum as ready meant never. If you had 
to go through all the steps that other kids did to get to tying 
your shoes, you may never get there.
    So a number of researchers shifted to a functional 
curriculum. And that has served us very well in the area of 
severe disabilities to make sure that students were able to get 
through the course of the school day, interact with their peers 
somewhat, learn self-care skills.
    But in the last 10 years after alternative assessment was 
first required by IDEA 1997, states started having evidence of 
student works that these students could, in fact, thrive in and 
demonstrate, again, pieces and lower levels in a way of the 
academic curriculum in ways that they had never been taught and 
none of us ever expected. And we were seeing such dramatic 
evidence that researchers kicked in--the team at the University 
of North Carolina, Charlotte started tracking the instructional 
benefits of this method. That discussion is still active.
    Mr. Sestak. The reason I am asking is, you know, it seems 
to me you can get the data for breaking down the barriers and 
access that would show NCLB has improved it from 55 to 62 
percent, or whatever--I don't have the exact numbers.
    My real question, then, is, because I am talking about data 
statistical analysis, are we, therefore, collecting the data 
now to determine the best accommodations? And I just don't 
know.
    Ms. Quenemoen. Yes. And the term ``accommodations''--how 
these students interact with the grade level content is very, 
very complex. It is more than the typical accommodations. On 
the other hand, on the use of accommodations on the general 
assessment, we are gathering more and more data to understand 
the affects of these accommodations in instruction and then in 
assessment over time.
    So are we gathering data to understand now that we are 
actually assessing all kids well? Yes. Do we understand fully 
what works best for each individual student? I don't think we 
are to that level yet.
    Mr. Sestak. Yes, ma'am?
    Ms. Cort. The proof of success and of change comes really 
after the student exits school. And IDEA has now started to 
assess and gather data on where are students with disabilities 
a year after they exit. Are they employed? Are they in higher 
education?
    And we are certainly seeing in the vocational 
rehabilitation side the same kind of shift in expectations from 
the sheltered workshops to virtually everyone able to benefit 
from some kind of integrated employment. And as we have changed 
our expectation and the training program, we are seeing people 
in very different places than they were 10 and 20 years ago.
    But we do need to look at what happens after students 
leave. And the more data systems can be linked--there is so 
much data being collected it is so confusing. You want it to be 
accurate.
    If we can get a mesh between the NCLB data and the IDEA 
data so that people can concentrate on common measures that 
don't sound almost the same but represent different numbers 
between the two laws, this will help us. And if we can get 
access to information and data on employment after students 
leave, I think it will be very helpful.
    Mr. Sestak. My time is up. But that issue is exactly what I 
hear. It is the two different numbers. And if there is a beauty 
in NCLB, it is this data that all of a sudden you can shape. 
And however long that data has to be collected, and when you 
have two differing sets, it is so much more than anecdotal. It 
means so much more.
    Thank you.
    Ms. Cort. We are moving in New York state to an individual 
student record system. And we are now beginning the process of 
a P-16 system that will begin to integrate our city and state 
university system data into the same data systems so that we 
can see how are students doing when they move onto post-
secondary, even if they graduated with a diploma were they 
ready.
    Mr. Hardman. May I just add just one very quick point to 
that alternative assessment issue? Because I want to concur 
very much with what has been said. But I also want to add that 
one of the things that we have really got to take a look at 
that the reauthorization of these alternate assessments is 
anchoring the assessment directly to value post-school 
outcomes.
    And what we have not done--the good news is these students 
are in the accountability system. The bad news is we are not 
measuring the right things at all relative to their 
independence, interdependence, employment, further education 
opportunities and so on as adults. That is where we need to be 
anchoring these alternate assessments.
    Chairman Kildee. Thank you very much.
    I want to thank the panel. This has been a great panel. 
Very often, two or three people on the panel get all the 
questions. All of you were asked questions here. And you all 
responded very specifically to the questions. And I want to 
first of all thank the panelists. You have been very, very 
helpful.
    And I want to thank also Lloyd Horwich of the majority 
staff and Brad Thomas of the Republican staff for doing a great 
job of assembling a great panel. It has been very, very good. 
And this is where Congress does its best work, when we operate 
in a bipartisan way.
    And it is people like you that bring us together in a 
bipartisan endeavor. And this bill passed with very strong 
bipartisan support. It is a very controversial bill. But it did 
pass in a bipartisan way.
    We need your continued input. And we will be calling upon 
you, I am sure, between now and the time we mark up the bill.
    But I very much appreciate the staff, the members who are 
here, and this panel.
    And we will have 7 days in which members may submit 
additional testimony or submit questions to the panelists.
    With that, we stand adjourned.
    [Questions for the record submitted to Ms. Quenemoen 
follow:]

                  Committee on Education and Labor,
                             U.S. House of Representatives,
                                    Washington, DC, March 30, 2007.
Rachel Quenemoen, Senior Research Fellow,
National Center on Educational Outcomes, University of Minnesota, 
        Minneapolis, MN.
    Dear Ms. Quenemoen: Thank you for testifying at the March 29, 2007 
hearing of the Subcommittee on Early Childhood, Elementary and 
Secondary Education.
    Representative Susan Davis (D-CA), a Member of the Subcommittee, 
has asked that you respond in writing to the following questions:
    On Page 8 of your written testimony, you discuss the accommodations 
that allow special education students to understand and take 
assessments. What are some examples of accommodations that are widely 
considered as acceptable and examples of accommodations that are 
considered as unacceptable under NCLB?
    You also mention that states are working ``hard'' to develop 
accommodations that ensure standards are not lowered. How do allowable 
accommodations vary between the states under NCLB?
    How involved is the Department of Education in assisting the states 
in developing these accommodations to make sure they are acceptable 
under NCLB proficiency testing?
    You also mention that some states have defended sometimes 
``controversial'' decisions regarding accommodations. What did these 
accommodations look like in these controversial cases and how did the 
Department of Education rule?
    You mention in your testimony that disabled students at a certain 
schools are making gains and achieving, based on formal and informal 
studies. These schools share certain traits, such as emphasis on 
inclusion and effective faculty recruitment. How many studies have been 
conducted in this area and are there efforts to replicate the 
successful traits in additional schools? That is, is this information 
being put to use?
            Sincerely,
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                                  Dale E. Kildee, Chairman,
         Subcommittee on Early Childhood, Elementary and Secondary 
                                                         Education.
                                 ______
                                 
    [Response to questions for the record from Ms. Quenemoen 
follow:]

          Response to Questions From Mrs. Davis of California
                          by Rachel Quenemoen

    I am pleased to respond to the questions asked by Representative 
Susan Davis (D-CA), a member of the Subcommittee on Early Childhood, 
Elementary and Secondary Education. I have answered the questions in 
narrative form below, citing and providing excerpts from the attached 
documents that provide additional information related to the questions. 
Neither of these papers is as yet released, so I have taken the liberty 
of attaching them for your reference purposes, with permission from the 
authors.
    The attachments include:
    Christensen, L.L., Lail, K.E., & Thurlow, M. L. (2007). Hints and 
tips for addressing accommodations issues for peer review. Minneapolis, 
MN: University of Minnesota, National Center on Educational Outcomes. 
To be released in April, 2007.
    Thurlow, M. L. (2007). Research Impact on State Accommodation 
Policies for Students with Disabilities. Paper to be presented at the 
2007 Annual Meeting of the American Educational Research Association, 
April, 2007
    1. On Page 8 of your written testimony, you discuss the 
accommodations that allow special education students to understand and 
take assessments. What are some examples of accommodations that are 
widely considered as acceptable and examples of accommodations that are 
considered as unacceptable under NCLB?
    NCLB does not define which accommodations are acceptable or 
unacceptable, nor does Peer Review of state assessment systems make 
that determination. Instead, NCLB requires that states develop content 
and achievement standards, and then requires that states design their 
assessments to ensure that the results will show what students know 
compared to those state-developed standards. States use a variety of 
steps to ensure that the results of these assessments in fact reflect 
what their standards reflect. Peer Reviewers then review the state 
documentation of these steps to ensure that they have been done 
consistent with accepted professional practice.
    The development of thoughtful and defensible accommodations 
policies is one important step in ensuring the state assessments 
reflect what the state standards reflect, grade by grade. Since states 
have defined these standards in slightly or even considerably different 
ways, grade by grade, their assessments require slightly or even 
considerably different accommodations policies. That is up to the state 
to define, and to defend. I provide more information about what 
successful defense of state accommodations policies requires, based on 
a systematic review of Peer Review documentation and letters to states 
from the U.S. Department of Education, in question 3 below about how 
the Department of Education is interacting with states on these issues.
    There is a summary of the most commonly allowed accommodations in 
states in Table 6, followed by the most controversial accommodations in 
Table 7, taken from pages 8-9 of the attached paper. (Thurlow, M. L. 
(2007). Research Impact on State Accommodation Policies for Students 
with Disabilities. Paper to be presented at the 2007 Annual Meeting of 
the American Educational Research Association, April, 2007.)
Excerpt from Thurlow, 2007:
    Bolt and Thurlow (2004) reported on the research on the most 
commonly allowed accommodations in 1999 (Braille, dictated response, 
large print, extended time, sign language interpreter), and found that 
in the 36 identified studies on these, there was mixed support and 
nonsupport for the accommodations for students with disabilities. When 
Bolt and Thurlow selected accommodations to include in their study, 
they included accommodations both with and without limitations.
    In terms of continuing to examine research findings, it might be 
useful to make a distinction between those test changes that are 
allowed by states without restrictions and those test changes that are 
allowed with restrictions. The test changes that, according to state 
policies in 2003 and 2005, were the most often allowed without 
restrictions, are shown in Table 6. In this table, it is also indicated 
whether some states allowed the test change with restrictions and 
whether some states prohibited the test change. For some test changes, 
more than 5 states (10% of the 50 states) altered their policies--so 
that the number of states in 2005 was different from the number in 
2003. This occurred for Braille Edition (which increased in the number 
of states allowing without restrictions, and decreased in the number of 
states allowing with restrictions), separate room (which decreased in 
the number of states allowing without restrictions and also was 
mentioned by fewer states), and time beneficial to student (which 
increased in the number of states allowing without restrictions and 
also with restrictions--showing an increase in the total number of 
states mentioning the test change). Of interest is the fact that few 
studies during this time frame examined the accommodations where 
dramatic changes were made in policy. This is true even if one goes 
back to the research before the time period of the current policies--if 
one assumes that there is more of a lag between research and policy.

                         TABLE 6.--TEST CHANGES MOST OFTEN ALLOWED WITHOUT RESTRICTIONS*
----------------------------------------------------------------------------------------------------------------
                                                             States Allowing   States Allowing       States
                                                                 Without            With           Prohibiting
                        Test Change                           Restrictions      Restrictions   -----------------
                                                           ------------------------------------
                                                              2003     2005     2003     2005     2003     2005
----------------------------------------------------------------------------------------------------------------
Large Print...............................................       47       48        2        0        0        0
Individualized Administration.............................       46       45        0        0        0        0
Small Group Administration................................       47       45        0        0        0        0
Magnification.............................................       41       42        0        0        0        0
Braille Edition...........................................       38       46       11        2        0        0
Separate Room.............................................       38       31        0        1        0        0
Write in Test Booklet.....................................       35       35        4        5        0        0
Time Beneficial to Student................................       35       41        0        4        0        0
----------------------------------------------------------------------------------------------------------------
*The 2003 information is from Clapper, Morse, Lazarus, Thompson, & Thurlow (2005). The 2005 information is from
  Lazarus, Thurlow, Lail, Eisenbraun, & Kato (2006).

    Another way to look at research on accommodations in the past five 
years is in terms of whether it has addressed those accommodations that 
are most frequently allowed with restrictions. These test changes tend 
to be the accommodations that are more controversial, and that need 
specifications placed on them (e.g., states allow them to be used in 
one situation but not another; states allow them to be used by some 
students but not other students). Table 7 shows the accommodations that 
are most often allowed with restrictions (also including an indication 
of the numbers of states that allow without restrictions and the 
numbers of states that prohibit). These are the accommodations that 
have received attention, either currently or in the past, and many of 
the changes reflect both a recognition of research findings and a 
policy push.

                    TABLE 7.--TEST CHANGES MOST OFTEN ALLOWED WITHOUT AND WITH RESTRICTIONS*
----------------------------------------------------------------------------------------------------------------
                                                             States Allowing   States Allowing       States
                                                                 Without            With           Prohibiting
                        Test Change                           Restrictions      Restrictions   -----------------
                                                           ------------------------------------
                                                              2003     2005     2003     2005     2003     2005
----------------------------------------------------------------------------------------------------------------
Oral Administration/Read Aloud............................        3        8       44       37        0        0
Calculator................................................       15       19       28       22        1        0
Proctor/Scribe............................................       32       37       17       11        0        0
Extended Time.............................................       29       41       16        4        2        0
Sign Interpret Questions..................................       13        8       29       25        0        0
----------------------------------------------------------------------------------------------------------------
*The 2003 information is from Clapper, Morse, Lazarus, Thompson, & Thurlow (2005). The 2005 information is from
  Lazarus, Thurlow, Lail, Eisenbraun, & Kato (2006).

    2. You also mention that states are working ``hard'' to develop 
accommodations that ensure standards are not lowered. How do allowable 
accommodations vary between the states under NCLB?
    A decade ago, when many states used norm-referenced testing (e.g., 
ITBS, SAT 9, other large-scale ``off-the-shelf'' tests), the purpose 
was to compare how their students were doing in the general content of 
math or reading with students across the country. These tests were 
carefully ``normed'' using specific accommodations and forbidding use 
of others. In those days and on those tests, accommodations choices 
were typically made by the test publisher, and states simply followed 
the test publisher's guidelines.
    NCLB, and the earlier IASA 1994, shifted testing away from 
comparing students to one another, and toward comparing what students 
know to well defined content and achievement standards. States have 
considerable flexibility to define these content and achievement 
standards, but once they have defined them, they have a responsibility 
under NCLB to ensure that their assessment system actually gives them 
data that reflects those standards. There are many steps in the 
development, administration, and analysis of assessments where the 
state has to ensure that the results of the test reflect their 
standards, including the test specifications--the design of each grade-
level test.
    One of these steps is in determining what accommodations will be 
allowed on parts or all of each test. The key for states is to consider 
what their own content and achievement standards are supposed to 
include. If a proposed accommodation will result in the test results 
meaning something different from what their own standards and testing 
specifications represent, then they generally do not allow use of that 
accommodation. In the case of calculators, many states allow the use of 
the accommodation on parts of the test (e.g., problem-solving items), 
but do not allow it on other parts of the test (e.g., computation 
items), since it clearly does not change the intent of the item for 
some items, but clearly does change the intent of the item for others.
    Since every state has slightly or even substantially different 
content and achievement standards from the other states, all state 
accommodations policies differ somewhat. The attached paper provides a 
thorough review of how state policies have evolved over the period from 
IASA through NCLB. (Thurlow, M. L. (2007). Research Impact on State 
Accommodation Policies for Students with Disabilities. Paper to be 
presented at the 2007 Annual Meeting of the American Educational 
Research Association, April, 2007.)
    Here is an excerpt from that paper that summarizes these shifts, 
taken from pages 9-11.
Excerpt from Thurlow, 2007
    There have been a number of shifts in accommodation policies over 
time. These include the steady but dramatic increase in the number of 
states with accommodation policies/guidance documents, from 21 in 1993 
to 50 for the past several years (see Figure 1).
    figure 1. number of states with accommodation policies over time
(Number of States)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Nature of States? Accommodation Policies. States' accommodation 
policies themselves have changed in several ways also. When NCEO first 
started studying states' policies, we had to contact states to obtain 
copies of their documents, and even in 1995, we were still able to 
reproduce all of the accommodation policies and guidance in one report 
that was less than 175 pages long. This report quoted all the relevant 
parts of the policies in all of the states that had them (Thurlow, 
Scott, & Ysseldyke, 1995). Today, and for the past several years, 
states' accommodation policies have blossomed. They are now available 
on the state's Web site in nearly every state, and each one in several 
states is more than 175 pages long.
    Sophistication of Policies. State accommodation policies are much 
more complex than ever before. When NCEO first started summarizing 
accommodation policies, we simply indicated an X for a test change that 
was ``allowed,'' a blank for one that was not mentioned by the state, 
and a P for a prohibited test change. Each time or couple times we 
summarized policies an adjustment was made to better reflect the 
increasing complexity of the policies themselves. Table 8 reflects the 
coding changes that have occurred over time, and in turn provides a 
glimpse of the complexity and sophistication of the policies.

   TABLE 8.--NCEO CODING SYSTEMS FOR ACCOMMODATION POLICIES OVER TIME
------------------------------------------------------------------------
    Year                            Coding System
------------------------------------------------------------------------
      1993   X = allowed; O = prohibited
      1995   Lists of states with certain accommodations
      1997   X = allowed; O = prohibited
      1999   X = allowed; O = prohibited
      2001   X = allowed; X* = score not aggregated if used; O =
              prohibited
      2003   A = allowed; AC = allowed in certain circumstances; AI =
              allowed with implications for scoring and/or aggregation;
              P = prohibited
2005, 2007   A = allowed; A* = allowed but called nonstandard (with no
              implications for scoring or aggregation); AC = allowed in
              certain circumstances; AI = allowed with implications for
              scoring and/or aggregation; P = prohibited
------------------------------------------------------------------------

    Implications for Aggregation of Scores. The type of sophistication 
reflected in recent years indicates that states are attending to what 
happens to scores and the aggregation of scores (including the 
reporting of scores) when test changes have been introduced. Clarity 
about the effects of the test changes on the validity of test results 
clearly is of concern to states. This does not mean that all states are 
in agreement with respect to aggregation for many accommodations.
    NCEO introduced the code AI = allowed with implications for scoring 
and/or aggregation in 2003. This was a modification of the code used in 
2001, which indicated a more rigid interpretation (score not aggregated 
if used). In fact, what is frequently observed is that the implications 
for scoring or aggregation may depend on specific circumstances, such 
as the content of the assessment or the assessment itself. Table 9 
shows several ``allowed with implications for scoring and/or 
aggregation'' circumstances from 2005--for the proctor/scribe 
accommodation--to give a sense of what the specifications are like.

  TABLE 9.--PROCTOR/SCRIBE--IMPLICATIONS FOR SCORING AND/OR AGGREGATION
                                 (2005)
------------------------------------------------------------------------
            State                            Specifications
------------------------------------------------------------------------
Arizona......................  Dictating to a scribe is considered a non-
                                standard accommodation when used on the
                                writing portion of Arizona's instrument
                                to Measure Standards (AIMS).
California...................  Proctor/Scribe--allowed with implications
                                for scoring if used on the CST, CAHSEE,
                                or CELDT.
Hawaii.......................  Proctor/Scribe--Must be in an individual
                                setting; Allowed with implications for
                                scoring if used on any test.
Massachusetts................  Proctor/Scribe--Considered non-standard
                                if used on the ELA Composition Test (may
                                alter what the test measures).
Oregon.......................  Proctor/Scribe--Considered a modification
                                if used on writing test (not considered
                                part of standard administration; scores
                                obtained under modified conditions do
                                not allow students to meet content and
                                achievement standards and the scores
                                will not appear in school and district
                                group statistics).
Utah.........................  Proctor/Scribe--Considered a modification
                                on all tests except for the Iowa tests.
Vermont......................  Proctor/Scribe--Allowed with implications
                                for scoring if used on the writing test.
------------------------------------------------------------------------

    NCEO Recommendations for Best Practices to Ensure that 
Accommodations Use Provides Meaningful Scores and Valid Inferences 
about Students' Knowledge and Skills:
    <bullet> Provide a logical and rational argument that demonstrates 
why tests administered with specific accommodations that may be 
considered controversial do indeed produce scores that are comparable 
to nonaccommodated tests, given the standards being assessed.
    <bullet> Identify studies that have been conducted that demonstrate 
the comparability of scores obtained with the accommodated and 
nonaccommodated assessments.
    <bullet> Provide results by accommodations and modifications, to 
clearly distinguish those that are comparable and those that are 
noncomparable to results from students who received no accommodations.
    <bullet> Conduct studies in your states on the use of 
accommodations by specific groups of students (e.g., category of 
disability, ethnic groups, etc.).
    <bullet> Interview students about accommodations (access to, 
understanding of purpose, reactions of peers, etc.)--variable that will 
help you understand the validity of scores that result from their use 
during instruction and assessment.
    <bullet> Interview teachers to better understand the logistical 
constraints that impede the provision of accommodations, which in turn 
might reduce the validity of assessment results.
    <bullet> Interview decision-making teams to identify factors that 
produce a tendency too many accommodations for individual students, 
thereby resulting in the provision of unneeded accommodations; produce 
a form to aid decision making to avoid students receiving unneeded 
accommodations.
    <bullet> Consider further disaggregation of scores by type of 
accommodation.
    <bullet> Use established research on accommodations to inform state 
policies.
    In sum, many states have found that a review of the literature on 
the effects of accommodations on comparability of scores, along with a 
formal judgmental policy review involving curriculum, assessment, and 
special education experts, is an essential part of an acceptable 
defense for state accommodations decisions. Again, these decisions must 
be related to the state's definition of their content and achievement 
standards, and the test specifications that define the specific content 
and achievement standards reflected on the grade-level tests.
    In addition, the Department of Education has made available another 
NCEO-ASES SCASS collaborative product on the OSEP Toolkit. It is a 
training package for states on use of accommodations. See Thompson, 
S.J., Morse, A.B., Sharpe, M., & Hall, S. (2005). Accommodations 
manual: How to select, administer, and evaluate use of accommodations 
for instruction and assessment of students with disabilities. 
Washington, DC: Council of Chief State School Officers, ASES SCASS. 
Also available from OSEP toolkit at--http://www.osepideasthatwork.org/
toolkit/accommodations--manual.asp
    Federal staff in the Title I office have also advised on a number 
of technical assistance materials for states. For example, I would 
highly recommend two briefs prepared to explain the NCLB assessment 
requirements for students with disabilities, and the accommodations 
decision-making process. Both are written by Candace Cortiella of the 
Advocacy Institute. The first is an NCEO product, and is on our NCEO 
Web site, NCLB and IDEA: What all parents of students with disabilities 
need to know and do, at http://education.umn.edu/nceo/OnlinePubs/
Parents.pdf
    The second is on the National Council for Learning Disabilities 
(NCLD) Web site, at http://www.ncld.org/content/view/284/322/ and 
scroll down to the segment Introduction and Background information to 
find the link; OR go to the NCLD document through our NCEO Web link, at 
http://education.umn.edu/nceo/OnlinePubs/NCLD/Accommodations.pdf No 
Child Left Behind: Determining appropriate assessment accommodations 
for students with disabilities. Both have been reviewed by Department 
of Education Title I staff for consistency with Title I requirements. 
Although they were written for the parent audience, they have been 
widely disseminated and used by states, parent organizations, and 
policy-makers.
    Recently proposed regulatory language has added to the challenge 
states are facing, however.
    Here is an excerpt from the attached paper that summarizes these 
shifts, taken from page 3: (Thurlow, M. L. (2007). Research Impact on 
State Accommodation Policies for Students with Disabilities. Paper to 
be presented at the 2007 Annual Meeting of the American Educational 
Research Association, April, 2007.)
Excerpt from Thurlow, 2007
    The federal requirements have ratcheted up the need for states to 
attend to the research and to ensure that their students are using 
accommodations during assessments that are producing valid scores. In 
fact, during the proposal for new regulations in 2005, the Department 
of Education attempted to confirm in regulations practice that had been 
imposed through non-regulatory guidance--that being that any student 
who participated in assessments in a way that produced invalid test 
results (and this included using changes in testing procedures 
considered by the state to be modifications) would no longer be 
considered participants in the assessment. For No Child Left Behind 
Adequate Yearly Progress (AYP) accountability purposes, which require 
that each subgroup have at least 95% participation for the school or 
district to be eligible for meeting AYP, this posed a serious threat. 
The specific words in the Notice of Proposed Rule-Making (December 15, 
2005) were as follows:

          Tests administered with accommodations that do not maintain 
        test validity are not measuring academic achievement under the 
        State's assessment system. Under the reauthorized IDEA, each 
        IEP now must indicate ``appropriate accommodations that are 
        necessary to measure the academic achievement and functional 
        performance of the child on State and district wide 
        assessments.'' State and LEA guidelines thus need to identify, 
        for IEP teams, those accommodations that will maintain test 
        validity. Similarly, under Title I, the concept of 
        ``appropriate accommodations'' in the context of assessments 
        must be thought of as accommodations that are needed by the 
        individual child and that maintain test validity. The Title I 
        regulations would only consider a student to be a participant 
        for AYP purposes if his or her assessment results in a valid 
        score.

    These developments suggest that there is a whole new set of 
pressures in place on research and on policy. They are in the works at 
the same time that research and policy are continuing to react to the 
need for more information to respond to what is a critically complex 
area of study and policy making.
    4. You also mention that some states have defended sometimes 
``controversial'' decisions regarding accommodations. What did these 
accommodations look like in these controversial cases and how did the 
Department of Education rule?
    The most common ``controversy'' relates to the accommodation of 
reading aloud parts of the reading tests. At the 2006 CCSSO Large-scale 
assessment conference in San Francisco, two states with varying stances 
on this accommodation presented the key issues they have considered. 
Dan Wiener of the Massachusetts Department of Education, where they 
have successfully defended their decision to allow the read-aloud in 
some cases, made the following key points. First, he pointed out that 
state accommodations decisions must be made based on the need for: 
inclusion; fairness, equity, flexibility; accessibility; 
appropriateness for each student; and defensibility. Second, he stated 
that states have an obligation to ensure the read-aloud accommodation 
will be: used only by small number of students who need it; used as a 
last resort, when no other access to the test exists; used only when 
already used for routine instruction; used when necessary to allow 
participation in grade-level tests, rather than alternate assessments. 
He emphasized the necessity of intensive training, materials, and 
support for IEP teams to ensure good decisions are being made, and 
read-aloud accommodations in instruction OR in assessment are not being 
used as an excuse not to teach students the underlying skills. He also 
emphasized that even with training in place, close monitoring of the 
decisions being made is essential.
    However, another key point was made by Mr. Wiener on the effects of 
use of this accommodation. He said that states have an obligation to 
explain use of this accommodation to the public. This includes an 
explanation of why this accommodation is allowed under certain 
conditions; who should be considered for this accommodation, including 
publicly defining the ``threshold'' for consideration. For example, 
``severely limited or prevented'' from reading based on effects of 
disabilities does not mean simply reading below grade level. He points 
out that struggling readers need extended time, not read-aloud. He also 
emphasized that the state has an obligation to communicate clearly to 
the public (and to parents) what the results of a reading test mean 
when the read-aloud accommodation is used on the Language and 
Literature test, specifically that the test results do NOT say that the 
students who take the test with this accommodation can in fact read.
    Massachusetts' accommodations policies (and their entire assessment 
system) have been approved through Peer Review. For more information on 
the Massachusetts' accommodations policies see Accommodations Policy, 
Participation Requirements, AlternateAssessment on the web: 
www.doe.mass.edu/mcas or contact <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="581c2f313d363d2a183c373d7635392b2b763d3c2d">[email&#160;protected]</a>
    At the same conference session, Dr. Melodie Friedebach from 
Missouri explained the decision their state had made on the read-aloud 
accommodation in a presentation entitled To read or not to read--that 
was our question. The state had decided at one time to allow the read-
aloud accommodation due to impact upon district accreditation, the high 
stakes environment, a push to have all students assessed, to 
acknowledge that time was needed to improve reading instruction for all 
students. Still, the decision was controversial--both in and out of the 
state Department of Education.
    In 2005, they reviewed this decision to allow the read-aloud 
accommodation, and were alarmed to see a very large number of students 
with disabilities taking the test with the accommodation. They found 
that at grade 3, approximately 50% of students with IEPs had the 
Communication Arts assessment (CA) read to them in years 1999-2005, and 
at grade 7, percent of students with IEPs that had test read to them 
grew from 50% in 1999, to 60% in 2005. The actual incidence of students 
who cannot learn to read well even with high quality instruction should 
be much smaller than this, and they worried that this accommodation had 
the unintended and negative consequence that many students were not 
expected to learn to read well. In addition, they found that in fact 
the use of this controversial accommodation by so many students did not 
result in significant numbers of children scoring at proficient or 
above, and had little impact on improving scores for accountability 
systems.
    In addition to this alarming data, they considered several other 
issues. Advice from their Technical Advisory Committee for assessment 
was to discontinue practice of reading the CA test, and given this 
technical advisor response, they were also concerned about gaining 
approval of State Assessment program through the U.S. Department of 
Education based on peer review of evidence of use of valid 
accommodations. They were also concerned about lowering expectations 
for students with IEPs and lack of focus on reading instruction for the 
students. Finally, they knew that NAEP and other large scale assessment 
measures of student achievement do not ``count'' reading accommodation 
as a valid accommodation when construct of reading is being assessed.
    Thus, in 2005, they decided to discontinue use of the read-aloud 
accommodation for their Communication Arts (CA) assessment beginning in 
Spring 2006, deciding that oral reading of the CA assessment will 
invalidate test for accountability purposes. All other assessments may 
be read to a student. Following that decision, Dr. Friedebach reported 
what she called some ``fallout,'' including letter writing campaigns 
from certain districts (those with unusually high rates of use of the 
oral reading accommodation), but there were no public negative comments 
from professional organizations. There was concern regarding the 
anxiety and stress created for students who can't read at grade level, 
but that was balanced by evidence of greater interest in professional 
development regarding reading instruction for primary and middle school 
students with disabilities. There was also expressed interest in the 
development of additional assessments for 2%. Their ongoing state plans 
include to continue to invest in professional development focused on 
reading instruction (Reading First, DIBELS), share impact of Reading 
First instruction on students with IEPs, and develop a plan for 
additional assessments for 2% of the students with IEPs.
    5. You mention in your testimony that disabled students at certain 
schools are making gains and achieving, based on formal and informal 
studies. These schools share certain traits, such as emphasis on 
inclusion and effective faculty recruitment. How many studies have been 
conducted in this area and are there efforts to replicate the 
successful traits in additional schools? That is, is this information 
being put to use?
    Numerous research organizations have been studying the 
characteristics of successful schools for students who have been 
affected negatively by achievement gaps for the past 30 years. 
Unfortunately, many of these studies do not look at students with 
disabilities as a targeted subgroup for their study. The Donahue 
Institute at the University of Massachusetts and the ASCD study in 
Rhode Island cited in my testimony are two studies focused specifically 
on the students with disabilities subgroup. However, it is striking to 
compare the research being done on other low-achieving subgroups, since 
the findings are remarkably consistent, and suggest that successful 
traits in successful schools yield success for ALL students.
    NCEO hosted a teleconference in February of 2006 entitled ``Making 
good decisions on special education flexibility options,'' and we 
included a side-by-side review of the major studies looking at traits 
of schools where traditionally low-performing subgroups are succeeding. 
I have attached that side-by-side comparison, but the key findings of 
the 4 major studies we compared are provided here.

                                      NCEO SIDE-BY-SIDE SUCCESS LITERATURE*
----------------------------------------------------------------------------------------------------------------
                                  Donahue Institute     Ford Foundation                       Ed Trust December
                                    October 2004         February 2005      EdSource 2005            2005
----------------------------------------------------------------------------------------------------------------
TITLE and AUTHORS.............  A Study of MCAS       Inside the Black    Similar Students,  Gaining Traction,
                                 Achievement and       Box of High-        Different          Gaining Ground:
                                 Promising Practices   Performing, High    Results: Why Do   How Some High
                                 in Urban Special      Poverty Schools:    Some Schools Do    Schools Accelerate
                                 Education;.           A report from the   Better?.          Learning for
                                Report of Field        Prichard           A large-scale       Struggling
                                 Research Findings;    Committee for       survey of          Students
                                 and.                  Academic            California        This report is
                                Case Studies and       Excellence.         elementary         available to
                                 Cross-Case Analysis  Patricia J.          schools serving    download for free
                                 of Promising          Kannapel and        low-income         at: http://
                                 Practices in          Stephen K           students..         www2.edtrust.org/
                                 Selected Urban        Clements with      Williams, T.,       NR/rdonlyres/
                                 Public School         Diana Taylor and    Kirst, M.,         6226B581-83C3-4447-
                                 Districts in          Terry Hbpshman      Haertel, E., et    9CE7-31C5694B9EF6/
                                 Massachusetts.        with funding from   al. (2005).        0/
                                This report is         the Ford            Mountain View,     GainingTractionGai
                                 available to          Foundation.         CA: EdSource..     ningGround.pdf
                                 download for free    This report is      This report is     Accompanying case
                                 at: http://           available to        available to       studies: http://
                                 www.donahue.umassp.   download for free   download for       www2.edtrust.org/
                                 edu/docs/?item--      at: http://         free at: http://   NR/rdonlyres/
                                 id=12699.             www.prichardcommi   edsource.org/      012DC865-97CA-4C2F-
                                Executive Summary:     ttee.org/           pub--abs--simstu   8A04-9924E2F392F0/
                                 http://               Ford%20Study/       05.cfm.            0/
                                 www.donahue.umassp.   FordReportJE.pdf.                      ThePowerToChange.p
                                 edu/docs/?item--                                             df
                                 id=12695.                                                   The Power to
                                                                                              Change: High
                                                                                              Schools that Help
                                                                                              All Students
                                                                                              Achieve--Karin
                                                                                              Chenoweth
FINDINGS......................  There is no single    The eight study     Extensive          In high impact
                                 blueprint for         schools generally   analysis of the    schools, these
                                 advancing the         received high       survey findings    spheres are
                                 achievement of        ratings on the      used regression    addressed
                                 students with         audit, scoring      analysis to        (examples are
                                 special needs in      highest in the      determine which    provided from many
                                 socio-economically    areas of school     activities more    subsphere
                                 complex urban         culture and         common at high-    information:
                                 areas. However, to    student, family,    performing than   Sphere 1: Culture
                                 the extent that       and community       at low-           For example, a
                                 urban districts       support. When       performing         clear focus in
                                 face a litany of      audit results       schools were       high-impact
                                 common conditions     were compared to    correlated with    schools is on
                                 and problems, the     those of low-       higher API         academics vs. on
                                 practices             performing, high-   scores..           rules.
                                 identified herein     poverty schools,   The practices      Sphere 2: Academic
                                 may be put to         the eight study     found to be        Core
                                 productive purpose    schools scored      associated with   For example,
                                 in other districts,   significantly       high performance   consistently
                                 as well..             higher on:.         were:.             higher
                                1. A Pervasive        1. Review and       1. Prioritizing     expectations for
                                 Emphasis on           alignment of        Student            all students,
                                 Curriculum            curriculum.         Achievement..      regardless of
                                 Alignment with the   2. Individual       2. Implementing a   students' prior
                                 MA Frameworks.        student             Coherent,          academic
                                2. ``Effective         assessment and      Standards-based    performance
                                 Systems to Support    instruction         Curriculum and    Sphere 3: Support
                                 Curriculum            tailored to         Instructional     For example,
                                 Alignment.            individual          Program..          administrators and
                                3. Emphasis on         student needs.     3. Using            teachers take
                                 Inclusion and        3. Caring,           Assessment Data    responsibility for
                                 Access to the         nurturing           to Improve         ensuring that
                                 Curriculum.           environment of      Student            struggling
                                4. Culture and         high expectations   Achievement and    students get the
                                 Practices that        for students.       Instruction..      additional help
                                 Support High         4. 4. Ongoing       4. Ensuring         that they need
                                 Standards and         professional        Availability of   Sphere 4: Teachers
                                 Student Achievement.  development for     Instructional     For example, more
                                5. ``A Well            staff that was      Resources..        criteria than
                                 Disciplined           connected to       5. Principal        teacher preference
                                 Academic and Social   student             leadership in      to make teaching
                                 Environment.          achievement data.   the context of     assignments * * *
                                6. Use of Student     5. Efficient use     accountability-    Teacher
                                 Assessment Data to    of resources and    driven reform is   assignments are
                                 Inform Decision-      instructional       being redefined    made to meet the
                                 Making.               time.               to focus on        needs of the
                                7. ``Unified                               effective          students, rather
                                 Practice Supported                        management of      than the desires
                                 by Targeted                               the school         of the teachers.
                                 Professional                              improvement       Sphere 5: Time and
                                 Development.                              process..          Other Resources
                                8. ``Access to                            6. District        For example, a
                                 Resources to                              leadership,        larger fraction of
                                 Support Key                               accountability,    that time [of
                                 Initiatives.                              and support        students in
                                9. Effective Staff                         appear to          affected
                                 Recruitment,                              influence          subgroups] is
                                 Retention, and                            student            spent in grade-
                                 Deployment.                               achievement..      level or ``college-
                                10. ``Flexible                                                prep'' courses,
                                 Leaders and Staff                                            while students in
                                 that Work                                                    average-impact
                                 Effectively in a                                             schools spend more
                                 Dynamic Environment.                                         time in
                                11. Effective                                                 ``support'' or
                                 Leadership is                                                ``remedial''
                                 Essential to                                                 courses.
                                 Success.
----------------------------------------------------------------------------------------------------------------
*Full document online at http://education.umn.edu/nceo/Teleconferences/tele11/default.html scroll down to
  ``Additional Resources''

    However, you have asked one of the most challenging questions we 
are facing in school reform at this time. That is the question of 
whether there are efforts to replicate the successful traits in 
additional schools? and That is, is this information being put to use?
    What is alarming is that many schools and districts have not 
committed to evidence-based practices in order to ensure the success of 
all the students. In my testimony, I answered a similar question of why 
have educational professionals so resisted actually teaching students 
with disabilities the challenging content, and expecting them to learn 
it. As stated there, part of the answer to this rests in centuries of 
fear and bias, or more recently, pity and caretaking toward people with 
disabilities, or for that matter, any people who are different from the 
typical. Given recent rhetoric and position statements on NCLB 
reauthorization among educational organizations, it seems to me that 
these attitudes are institutionalized in some professional 
organizations, even those representing special education.
    However, the literature on change processes suggests that even with 
a shift in attitudes and beliefs, we are facing huge challenges in 
changing practice in all public schools. States ultimately have the 
responsibility to provide leadership on reform strategies that result 
in high achievement for all students. NCEO does not focus on this type 
of reform question, so in response to your question I asked Dr. 
Margaret McLaughlin at the University of Maryland with whom we partner 
frequently on the overlap of assessment and standards-based reform 
issues, to comment. She said, via email,

          The issue of ``scaling up,'' and sustaining progress in 
        reform, is not well researched in either general or special 
        education. It is an area where we need to look at what local 
        education agencies (LEAs) know and can do to support more 
        schools getting better. My own anecdotal observations, over 
        about 15 LEAs and about that many years, is that good schools, 
        that is those getting results for general education students, 
        are also getting them for students with disabilities. Those 
        schools that need help for multiple sub groups are turned 
        around through sustained and focused district support, weekly 
        if not more, in developing formative/curriculum based 
        assessments and monitoring student progress; having a well 
        sequenced standards-based curriculum, not just a bunch of 
        textbooks; teachers--both general and special education 
        licensed--who know how to teach that curriculum; and flexible 
        arrangements and use of special education personnel. This 
        usually means a school has an effective principal and very good 
        teachers who can respond to the intensive professional 
        development. Most of this really only happens in suburban or 
        small better resourced districts. (Margaret McLaughlin 
        [<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e1314133e0b131a501b1a0b">[email&#160;protected]</a>])

    In other words, actually shifting practice is labor intensive, 
complex work, and requires resources and leadership. I would also 
suggest it takes a long-term commitment to intensive and focused 
professional development, both preservice and inservice. Although NCEO 
is not charged with working on reform implementation in schools, we do 
work with change processes around assessment system design. In that 
work, we rely on a research based that suggests these components are 
essential to systematic, sustainable change:
    <bullet> access to a research-based knowledge base information 
infrastructure to support use of knowledge;
    <bullet> a coaching culture that recognizes natural leaders and 
stakeholders as resources;
    <bullet> access to peers, networks, and partners with knowledge and 
skills to be shared in a learning community , and
    <bullet> working partnerships across researchers, practitioners, 
parents, advocates, and students.
                                 ______
                                 
    [The prepared statement of the National School Boards 
Association (NSBA) follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [Whereupon, at 12:21 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
